APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Colorado Supreme
Court, 2019 CO 47M
(June 3, 2019,
Modified June 17, 2019) . . . . . . . . App. 1
Appendix B Opinion in the Colorado Court of
Appeals, 2017 COA 21
(February 23, 2017) . . . . . . . . . . App. 29
Appendix C Corrected Final Order of the
Industrial Claim Appeals Office, FEIN
84-1545878
(January 20, 2016) . . . . . . . . . . . App. 72
Appendix D Order of the State of Colorado,
Department of Labor and Employment,
Division of Workers’ Compensation,
FEIN 84-1545878
(August 27, 2015) . . . . . . . . . . . . App. 91
Appendix E Order of Remand of the Industrial
Claim Appeals Office, W.C. No. 841545878
(July 30, 2015). . . . . . . . . . . . . . App. 101
Appendix F Supplemental Order of the State of
Colorado, Department of Labor and
Employment, Division of Workers’
Compensation, FEIN 84-1545878
(April 21, 2015) . . . . . . . . . . . . . App. 116

ii
Appendix G Specific Findings of Fact, Conclusions
and Order to Pay Fine of the State of
Colorado, Department of Labor and
Employment, Division of Workers’
Compensation, FEIN 84-1545878
(October 10, 2014) . . . . . . . . . . . App. 136
Appendix H Statutes
Colo. Rev. Stat. § 8-43-409 . . . . App. 144

App. 1

APPENDIX A
Opinions of the Colorado Supreme Court are
available to the public and can be accessed through
the Judicial Branch’s homepage at
http://www.courts.state.co.us. Opinions are also
posted on the Colorado Bar Association’s homepage
at http://www.cobar.org.
ADVANCE SHEET HEADNOTE
June 3, 2019
AS MODIFIED [JUNE 17, 2019]
2019 CO 47M
No. 17SC200, Colo. Dep’t of Labor & Emp’t, Div. of
Workers’ Comp. v. Dami Hosp., LLC—Eighth
Amendment—Corporations—Excessive Fines—
Workers’ Compensation Noncompliance.
The supreme court considers whether the Eighth
Amendment’s prohibition on the government
imposition of “excessive fines” applies to fines levied on
corporations. Concluding that this Eighth Amendment
protection does apply to corporations, the supreme
court holds that the proper test to assess the
constitutionality of government-imposed fines requires
an assessment of whether the fine is grossly
disproportional to the offense for which it is imposed,
as articulated in United States v. Bajakajian, 524 U.S.
321, 334 (1998). The court of appeals’ ruling is thus

App. 2
reversed and the case is remanded to that court for
return to the Division of Workers’ Compensation to
determine whether the per diem fines at issue are
proportional to the harm or risk of harm caused by
each day of the employer’s failure to comply with the
statutory requirement to carry workers’ compensation
insurance.

App. 3
The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
2019 CO 47M
Supreme Court Case No. 17SC200
Certiorari to the Colorado Court of Appeals
Colorado Court of Appeals Case No. 16CA249
[Modified June 17, 2019]
[Filed June 3, 2019]
________________________________
Petitioner:
)
Colorado Department of Labor
)
and Employment, Division of
)
Workers’ Compensation,
)
)
v.
)
)
Respondents:
)
Dami Hospitality, LLC; and
)
Industrial Claim Appeals Office. )
________________________________ )
Judgment Reversed
en banc
June 3, 2019
Opinion modified, and as modified,
petition for rehearing DENIED. EN BANC.
June 17, 2019
Attorneys for Petitioner:
Philip J. Weiser, Attorney General
John T. Lee, Senior Assistant Attorney General

App. 4
Emmy A. Langley, Assistant Solicitor General
Denver, Colorado
Attorneys for Respondent Dami Hospitality, LLC:
Law Offices of Daniel T. Goodwin
Daniel T. Goodwin
Paige Orgel
Broomfield, Colorado
Attorney for Amici Curiae Cato Institute and
Independence Institute:
David B. Kopel
Denver, Colorado
No appearance on behalf of Industrial Claim Appeals
Office.
JUSTICE HART delivered the Opinion of the Court.
JUSTICE SAMOUR concurs in part and dissents in
part.
JUSTICE HOOD does not participate.
¶1 This case requires us to consider whether the
Eighth Amendment’s prohibition on the government
imposition of “excessive fines” applies to fines levied on
corporations.1 We conclude that the purpose of the
1

We granted certiorari to review the following issues:
1. Whether the protections of the Excessive Fines Clause of
the Eighth Amendment apply to corporations;
2. Whether the court of appeals applied the correct test to
determine the constitutionality of a civil fine; and
3. Whether the court of appeals reasonably concluded that
the fine at issue violated the Eighth Amendment.

App. 5
Excessive Fines Clause is to prevent the government
from abusing its power to punish by imposing fines,
and nothing in that purpose or in the text of the Eighth
Amendment limits its reach to fines imposed on
individuals. We further conclude that the proper test to
assess the constitutionality of government fines under
the Eighth Amendment is that set forth by the United
States Supreme Court in United States v. Bajakajian,
524 U.S. 321, 334 (1998), which requires an assessment
of whether the fine is grossly disproportional to the
offense for which it is imposed. We thus reverse the
court of appeals’ ruling and remand to that court for
return to the Division of Workers’ Compensation with
instructions to, as appropriate and necessary, develop
an evidentiary record sufficient to determine whether
the $250–$500 fine that a business was required to pay
for each day that it was out of compliance with
Colorado’s workers’ compensation law is proportional
to the harm or risk of harm caused by each day of
noncompliance.
I. Facts and Procedural History
¶2 Dami Hospitality, LLC (“Dami”) is the owneroperator of a Denver motel located on Peoria Street.
Dami employs between four and ten people at any
given time. As an employer, Dami is required by
statute to maintain workers’ compensation insurance.
See § 8-43-409, C.R.S. (2018).
¶3 Dami allowed its workers’ compensation coverage to
lapse on or about July 1, 2005. Upon receiving
notification of the lapse from the Division of Workers’
Compensation (“DWC”), Dami conceded the violation
and paid a corresponding settlement in June 2006.

App. 6
¶4 Approximately two months later, Dami again
allowed its workers’ compensation coverage to lapse.
This time, Dami went without coverage from August
10, 2006, through June 8, 2007.
¶5 From June 9, 2007, to September 11, 2010, Dami
carried the proper insurance, but the company’s
workers’ compensation coverage again lapsed on
September 12, 2010. Dami was without such insurance
from that time until July 9, 2014.
¶6 On February 19, 2014, the DWC discovered that
Dami had allowed its workers’ compensation insurance
to lapse for these periods of time and issued a notice to
Dami regarding this. That written correspondence was
dispatched to Dami’s Peoria Street address, which was
the address on file with the Colorado Secretary of State
for both the limited liability company and its registered
agent, Soon Pak. The DWC notice advised Dami that it
had twenty days to return an enclosed compliance
questionnaire and to submit documents either
establishing that it had maintained coverage during
the relevant periods or demonstrating an exemption
from the coverage requirement. It also specified that
Dami could “request a prehearing conference on the
issue of default.”
¶7 After Dami failed to respond to the notice of
subsequent violation, the DWC mailed a second notice
to Dami on June 25, 2014, this time sending it to an
East Dartmouth Place address.2 For the second time,
2

It is not clear from the record why the DWC mailed an additional
subsequent violation notice to the East Dartmouth Place address.
However, the record includes documentation from the Colorado

App. 7
Dami was given twenty days to return the same
compliance questionnaire and to submit documents
either establishing coverage during the relevant
periods or demonstrating an exemption from the
coverage requirement. The DWC also specified, again,
that Dami could request a prehearing conference on the
issue of default.
¶8 On July 11, 2014, the DWC received a faxed
certificate of workers’ compensation insurance for
Dami effective from July 10, 2014, through July 10,
2015. Dami did not offer any other documentation or
any explanation for the extended periods of
noncompliance.
¶9 Having received no claim of exemption or proof of
coverage for the second and third periods of
noncompliance, and no request for a prehearing
conference, the DWC concluded its legally mandated
investigation into Dami’s noncompliance on October 29,
2014. The applicable statutory framework provides
that the DWC shall:
For every day that the employer fails or has
failed to insure or to keep the insurance required
by articles 40 to 47 of this title in force, allows or
has allowed the insurance to lapse, or fails or
has failed to effect a renewal of such coverage:
impose a fine of: (I) Not more than two hundred

Secretary of State’s website indicating that the East Dartmouth
Place address appears in Dami’s May 11, 2000 Articles of
Incorporation for both the “principal place of business” and its
organizer, Soon Pak. Elsewhere, Pak identifies the East
Dartmouth Place address as her personal residence.

App. 8
fifty dollars for an initial violation; or (II) Not
less than two hundred fifty dollars or more than
five hundred dollars for a second and subsequent
violation.
§ 8-43-409(1)(b), C.R.S. (2018). In implementing this
provision, the DWC promulgated Rule 3-6(D), 7 CCR
1101-3, which provides that:
For the Director’s finding of an employer’s
second and all subsequent defaults in its
insurance obligations, daily fines from $250/day
up to $500/day for each day of default will be
assessed in accordance with the following
schedule of fines until the employer complies
with the requirements of the Workers’
Compensation Act regarding insurance or until
further order of the Director:
Class VII 1-20 Days $250/Day
Class VIII 21-25 Days $260/Day
Class IX 26-30 Days $280/Day
Class X 31-35 Days $300/Day
Class XI 36-40 Days $400/Day
Class XII 41 Days $500/Day
¶10 The DWC applied this statutory and regulatory
regime in calculating the fine for Dami’s second and
third periods of noncompliance with the Workers’
Compensation Act. On October 30, 2014, the DWC sent
its “Specific Findings of Fact, Conclusions and Order to
Pay Fine–Subsequent Violation” (the “Order”) to Dami.

App. 9
This document categorized the fine amounts owed by
Dami by the six classes of violation defined in DWC
Rule 3-6(D), noting the per diem amount owed for each
of the corresponding date ranges. The final paragraph
of the order explained that the total amount Dami
owed as a result of the 1,698 per diem fines was
$841,200.
¶11 On November 18, 2014, the DWC received
correspondence from Soon Pak, Dami’s registered
agent. In a letter written on Dami’s behalf, Pak
conceded that the business had failed to maintain
workers’ compensation insurance during the noticed
periods. Pak explained that Dami’s failure to
consistently maintain coverage was a result of her
reliance on others to maintain “business coverage.” Pak
stated that Dami’s annual payroll is less than $50,000,
and that the aggregate fine proposed by the DWC
exceeded the business’s gross annual income. Pak
informed the DWC that Dami was thus unable to pay
the aggregated per diem fines and requested leniency
in the form of a penalty “that is more reasonable to the
size of [the] business.” Pak also asserted that there had
never been a worker-related accident or injury at the
motel, either when coverage was in place or during any
period of Dami’s noncompliance. Pak did not request a
hearing on the issue of Dami’s default on its workers’
compensation insurance obligation.
¶12 The DWC construed Pak’s correspondence as a
petition to review the Order. The DWC then made
settlement overtures, offering to decrease the fine by
nearly half, to $425,000 (the aggregated minimum per
diem fines permissible under section 8-43-409(1)(b)(II)).

App. 10
Dami did not accept the settlement, and instead
submitted a brief in furtherance of the petition to
review. Dami argued that (1) it had “reasonably
believed that it was in compliance with the statute” at
all relevant times; (2) the DWC failed to provide
adequate and timely notice of Dami’s noncompliance;
(3) because Dami promptly cured its default upon
receiving notice, it should be assessed no penalty or at
least a much smaller penalty; and (4) the assessed per
diem fines were constitutionally excessive in violation
of the Excessive Fines Clause of the Eighth
Amendment.
¶13 The DWC issued an order upholding the fines.
The DWC began by noting that the per diem fines were
“not discretionary” and were properly calculated
pursuant to section 8-43-409 and Rule 3-6(D)’s
assessment classification schedule. Next, the DWC
observed that the law places the responsibility for
knowing whether workers’ compensation coverage is
consistently maintained on the employer and not on
the DWC. Further, the order explained that Dami’s
policy was cancelled in 2006 due to nonpayment of
required premiums and “its 2010 policy was cancelled
for failure to comply with terms & conditions or audit
failure.” The DWC determined that both of those
reasons for cancellation were within Dami’s control.
The DWC stated that Dami’s procurement of coverage
after receiving actual notice of its subsequent violation
did not relieve it of responsibility to pay the statutory
fines imposed for the prior 1,698 days of
noncompliance. Finally, the DWC declined to address
Dami’s constitutional arguments, concluding that

App. 11
administrative agencies are not authorized to “pass on
the constitutionality of statutes.”
¶14 Dami appealed to the Industrial Claim Appeals
Office (“ICAO”). The ICAO rejected all but Dami’s
excessive fines argument. The ICAO remanded the
matter to the DWC, directing it to review the
constitutionality of the aggregated per diem fines
assessed in accordance with the test established by the
court of appeals in Associated Business Products v.
Industrial Claim Appeals Office, 126 P.3d 323 (Colo.
App. 2005). That test, borrowed from United States
Supreme Court Fourteenth Amendment jurisprudence,
requires consideration of “(1) the degree of
reprehensibility of the defendant’s misconduct, (2) the
disparity between the harm (or potential harm)
suffered by the plaintiff and the punitive damages
award, and (3) the difference between the punitive
damages awarded and the civil penalties authorized or
imposed in comparable cases.” Id. at 326 (citing Cooper
Indus. v. Leatherman Tool Grp., Inc., 532 U.S. 424, 425
(2001)).
¶15 Without holding a hearing, the DWC ultimately
issued a supplemental order concluding that “Rule 36(D) incorporates and addresses all of the elements of
the Associated Business Products test, and thus that
the fine of $841,200.00 assessed against [Dami]
according to that Rule is appropriate.” The DWC
explained that the graduated nature of the daily fines,
increasing as the length of the period of noncompliance
increases, accounted for the degree of reprehensibility
of the conduct. The potential harm caused by
noncompliance, according to the DWC, was in line with

App. 12
the fines because each day of noncompliance presents
a risk that an employee will be injured and insurance
will not be in place to cover that injury. And because
the penalties are statutorily imposed and apply to all
violators equally, Rule 3-6(D) ensures that there is no
disparity between the fines imposed on Dami and fines
imposed on any other noncompliant employer.
¶16 Dami again appealed to the ICAO, which
affirmed the DWC’s supplemental order.
¶17 Dami then appealed to the court of appeals. The
division set aside the assessment of aggregated per
diem fines. Dami Hosp., LLC v. Indus. Claim Appeals
Office, 2017 COA 21, ¶ 110, __ P.3d __. It assumed
without deciding that the Excessive Fines Clause could
be applied to challenge regulatory fees imposed on a
corporation. Id. at ¶ 57. It determined that the
Associated Business Products test was the correct test
to apply in assessing the constitutionality of the fee
and that consideration of Dami’s ability to pay the fine
was a relevant factor in that assessment. Id. at
¶¶ 71–81. And it concluded that DWC abused its
discretion by failing “to apply the Associated Business
Products factors . . . to Dami’s specific circumstances.”
Id. at ¶ 110. The division remanded the Order to the
DWC for recalculation in accordance with its opinion.
Id. The DWC petitioned for certiorari, and we granted
the petition.
II. Analysis
¶18 We first consider whether the Excessive Fines
Clause affords corporations protection against
constitutionally excessive fines. We conclude that it

App. 13
does. Next, we hold that the proper test for
determining whether a fine is unconstitutionally
excessive is whether it is grossly disproportional to the
gravity of the subject offense. See Bajakajian, 524 U.S.
at 334. We explain that the evaluation of
disproportionality should include consideration of the
company’s ability to pay the fine. We then consider
whether the gross disproportionality analysis should be
applied to each per diem fine or to the aggregate
amount imposed for 1,698 days of noncompliance. We
hold that where, as here, a statute expressly states
that each day a party fails to comply with a legal
obligation “shall constitute a separate and distinct
violation” of the law, the Eighth Amendment analysis
must focus on each per diem fine imposed by statute.
§ 8-43-305, C.R.S. (2018). We then remand the case to
the court of appeals with instructions to return it to the
DWC for the development, as appropriate and
necessary, of an evidentiary record to facilitate
application of the proportionality analysis.
A. Applicability of the Excessive Fines Clause
to Corporations
¶19 Whether a particular constitutional guarantee
applies to both natural persons and corporations
“depends on the nature, history, and purpose” of the
provision. First Nat’l Bank of Boston v. Bellotti, 435
U.S. 765, 778 n.14 (1978).3
3

After oral argument in this case, the United States Supreme
Court held that the Excessive Fines Clause is incorporated against
the States by the Due Process Clause in Timbs v. Indiana, ___ U.S.
___, 139 S. Ct. 682, 687 (2019). The prohibition against imposing
excessive fines thus does apply to Colorado’s DWC.

App. 14
¶20 Guarantees that are “purely personal” or
“limited to the protection of individuals” will not apply
to corporations. Id. The established personal
guarantees include the Fifth Amendment privilege
against self-incrimination and the right to privacy. See
United States v. Morton Salt Co., 338 U.S. 632, 652
(1950) (“[C]orporations can claim no equality with
individuals in the enjoyment of a right to privacy.”);
United States v. White, 322 U.S. 694, 698–701 (1944)
(Fifth Amendment); NW Nat. Life Ins. v. Riggs, 203
U.S. 243, 255 (1906) (noting that the “liberty” referred
to in the Fourteenth Amendment is the liberty of
natural persons).
¶21 On the other hand, when a guarantee is against
certain government overreach, and is a “constitutional
immunit[y] appropriate to [a corporate] body,” this
constitutional limitation on government power can
apply to protect a corporation just as it may protect a
natural person. Hale v. Henkel, 201 U.S. 43, 76 (1906).
Thus, corporations have been recognized to have First
Amendment rights to free speech and Fourteenth
Amendment rights to due process and equal protection
of the law. See Metro. Life Ins. v. Ward, 470 U.S. 869,
880 (1985) (equal protection); Helicopteros Nacionales
de Columbia v. Hall, 466 U.S. 408, 414 (1984) (due
process); First Nat’l Bank, 435 U.S. at 783–84 (free
speech). Similarly, corporations are protected from
unreasonable searches and seizures, cannot have their
property taken without just compensation, and cannot
be tried twice for the same offense. See Penn Cent.
Transp. Co. v. City of New York, 438 U.S. 104, 122
(1978) (takings); Marshall v. Barlow’s, Inc., 436 U.S.
307, 311–13 (1978) (unreasonable searches and

App. 15
seizures); United States v. Martin Linen Supply Co.,
430 U.S. 564, 568–69 (1977) (double jeopardy).
¶22 With these cases as guideposts, in considering
whether the Excessive Fines Clause applies to
corporations we must evaluate both the purpose of the
clause and the appropriateness of applying it to
corporations.4
¶23 The Eighth Amendment provides that
“[e]xcessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.” U.S. Const. amend. VIII. On its face, the text
of the Excessive Fines Clause does not suggest that its
protections are limited to natural persons. The clause
is a directive to the government not to impose excessive
fines. It does not include any limitation on who merits
protection from the imposition of excessive fines.
¶24 The DWC argues that the other clauses of the
Eighth Amendment offer an important textual clue to
the meaning of the Excessive Fines Clause. Wielding
the maxim of noscitur a sociis, which provides that the
meaning of a phrase should be informed “by the
neighboring words with which it is associated,” United
States v. Williams, 553 U.S. 285, 294 (2008), it asserts
that (1) the prohibitions of excessive bail and cruel and
unusual punishment can only be applied to protect

4

Contrary to the court of appeals’ suggestion that there has been
a “tidal shift” toward favoring the application of constitutional
guarantees to corporations, Dami, ¶ 58, this nature and purposebased approach to evaluating the question has been applied by the
United States Supreme Court since at least 1906, see Hale, 201
U.S. at 76.

App. 16
natural persons, and, therefore (2) the Excessive Fines
Clause must be limited in application to natural
persons.
¶25 Unfortunately for the DWC, the United States
Supreme Court has already abandoned noscitur a sociis
in interpreting the Eighth Amendment. In Austin v.
United States, 509 U.S. 602, 610 (1993), the Court
concluded that the Excessive Fines Clause applied to
prohibit excessive civil fines as well as excessive
criminal fines when the purpose of the civil fine was, at
least in part, to impose punishment. The Court reached
that conclusion despite the fact that it had previously
held that the Cruel and Unusual Punishment Clause
applied only to criminal punishment. See Ingraham v.
Wright, 430 U.S. 651, 666–68 (1977). In so holding, the
Austin Court moved away from its earlier suggestion
that the three clauses of the Eighth Amendment must
all be interpreted to have the same reach. See id. at
664; see also Austin, 509 U.S. at 608–09 & n.5. Instead,
the Court focused on the purpose of the Excessive Fines
Clause itself—which is to prevent the government from
abusing its power to punish through the imposition of
fines, whether those fines are part of a criminal scheme
or a civil one. Austin, 509 U.S. at 610–11.
¶26 The question we face, then, is whether there is
justification to conclude that the purpose of the
Excessive Fines Clause supports its application to
protect corporations even if the other clauses in the
Eighth Amendment do not. We conclude that there is.
The bail clause is necessarily limited to natural persons
because corporations cannot be jailed, and therefore
cannot be subject to bail. Similarly, cruel and unusual

App. 17
punishment cannot be imposed upon a corporation. In
short, these two guarantees are not “appropriate to [a
corporate] body.” Hale, 201 U.S. at 76. By contrast,
“[t]he payment of monetary penalties . . . is something
that a corporation can do as an entity.” BrowningFerris Indus. v. Kelco Disposal, Inc., 492 U.S. 257, 285
(1989) (O’Connor, J., concurring in part and dissenting
in part). Moreover, the government regularly imposes
a wide array of monetary penalties, both civil and
criminal, on corporations for the purposes of punishing
corporate misconduct and regulatory violations. And
when the government imposes these punitive
sanctions, we hold that it must do so in compliance
with the Excessive Fines Clause.
B. The Proportionality Standard for
Determining Whether a Fine is
Constitutionally Excessive
¶27 Having determined that corporations are
entitled to assert claims that fines imposed by the
government for punitive purposes are excessive in
violation of the Eighth Amendment, we next consider
what standard a corporation must meet to succeed in
such a claim. The United States Supreme Court
articulated that standard in Bajakajian, where it
explained that “[i]f the amount of the [fine] is grossly
disproportional to the gravity of the . . . offense, it is
unconstitutional.” 524 U.S. at 337.
¶28 In adopting this proportionality standard, the
Court in Bajakajian relied on two “particularly
relevant” considerations. Id. at 336. The first is that
“judgments about the appropriate punishment for an
offense belong in the first instance to the legislature.”

App. 18
Id. at 336 (citing Solem v. Helm, 463 U.S. 277, 290
(1983), and Gore v. United States, 357 U.S. 386, 393
(1958)). The second is that judicial determinations as
to the gravity of an offense are inherently imprecise.
Id. These considerations, explained the Court, “counsel
against requiring strict proportionality” between the
amount of a punitive fine and the gravity of the
underlying offense, and for adopting the test previously
articulated in cases interpreting the Cruel and
Unusual Punishment Clause. Id. (citing Solem, 463
U.S. at 288 and Rummel v. Estelle, 445 U.S. 263, 271
(1980)). Under that test, courts evaluating
proportionality must consider whether the defendant
was treated more harshly (1) than others within the
same jurisdiction and (2) than he would have been in
any other jurisdiction. Solem, 463 U.S. at 303.
¶29 Neither the court of appeals nor the ICAO
hearing panel in this case applied the United States
Supreme Court’s “gross disproportionality” test to
evaluate the fines imposed on Dami for its protracted
failure to maintain workers’ compensation insurance.
Instead, both relied on the test articulated by the court
of appeals in Associated Business Products. This test is
inconsistent with Bajakajian. Today, we bring Colorado
law into conformity with federal law and hold that the
proper standard for determining whether a regulatory
penalty amounts to a constitutionally excessive fine in
violation of the Eighth Amendment is whether it is
grossly disproportional to the gravity of the underlying
offense.
¶30 The United States Supreme Court has not
addressed whether the Eighth Amendment

App. 19
proportionality assessment can or should include
consideration of the ability of the person being fined to
pay that fine. The only reference to the issue in
Bajakajian itself was a footnote observing that:
“respondent does not argue that his wealth or income
are relevant to the proportionality determination or
that full forfeiture would deprive him of his livelihood
. . . and the District Court made no factual findings in
this respect.” 524 U.S. at 340 n.15. The Court has,
however, in a number of cases observed that the
historical precursor to the Eighth Amendment, the
English Magna Carta, limited the power of government
to impose punitive fines by, among other things,
requiring that a penalty “not be so large as to deprive
[a person] of his livelihood.” Browning-Ferris, 492 U.S.
at 271; see also Bajakajian, 524 U.S. at 335 (same).
And the Court’s most recent Excessive Fines Clause
decision cited with approval a statement from
Blackstone’s Commentaries on the Laws of England
that “no man shall have a larger amercement imposed
upon him, than his circumstances or personal estate
will bear.” Timbs, ___ U.S. ___, 139 S. Ct. at 688 (citing
4 W. Blackstone, Commentaries on the Laws of
England 372 (1769)). We see in the Court’s citation to
these historical predecessors of the Excessive Fines
Clause, and their consideration of ability to pay,
persuasive evidence that a fine that is more than a
person can pay may be “excessive” within the meaning
of the Eighth Amendment.
¶31 The concept of “proportionality” itself also
persuades us that ability to pay is an appropriate
element of the Excessive Fines Clause gross
disproportionality analysis. A fine that would bankrupt

App. 20
a person or put a company out of business would be a
substantially more onerous fine than one that did not.
For some types of criminal or regulatory infractions, a
penalty that would have that kind of grave
consequence might be warranted, whereas for others
the severity of that outcome may be out of proportion to
the gravity of the offense for which the fine is imposed.
We thus conclude that courts considering whether a
fine is constitutionally excessive should consider ability
to pay in making that assessment.
C. The Proportionality Analysis Must Consider
Each Individual Per Diem Fine
¶32 Dami argues that the proportionality analysis
should be applied to the aggregate $841,200 that the
company was assessed, and not to each of the $250$500 daily fines. We disagree. The workers’
compensation statutory regime explicitly states that
“[e]very day during which an employer . . . fails to
perform any duty imposed by articles 40 to 47 of this
title shall constitute a separate and distinct violation
thereof.” § 8-43-305. Moreover, the statute directs the
DWC to impose a daily fine of $250–$500 for each day
of noncompliance. The statute thus puts every
employer on notice that it will be fined between $250
and $500 per day for each day that it is out of
compliance with its legal obligations. While the
assessment for the 1,698 per diem fines may have
reflected a lump sum total owed by Dami, the fines
were clearly imposed at a daily rate as a result of many
daily violations.
¶33 In the criminal context, we have refused to
aggregate sentences that were assessed individually for

App. 21
purposes of evaluating the proportionality of the
sentences. In People v. Lucero, 2017 CO 49, ¶ 23, 394
P.3d 1128, 1133–34, we rejected the defendant’s
argument that his four consecutive sentences totaling
eighty-four years for four separate crimes amounted in
the aggregate to a sentence of life without the
possibility of parole. We concluded instead that “[t]he
question of whether Lucero’s consecutive term-of-years
sentences meet the dictates of the Eighth Amendment’s
proportionality principle requires consideration of each
individual crime and each sentence imposed.” Id. at
1134; see also Close v. People, 48 P.3d 528, 538–40
(Colo. 2002) (holding that, because each sentence is a
separate punishment for a separate offense, the proper
question is whether each sentence is appropriate for its
related offense and not whether the aggregate of the
sentences is disproportional in the abstract). We see no
principled justification for taking a different approach
in the context of the regulatory fines at issue here.
¶34 We recognize that, under the circumstances, the
fact that Dami did not receive notice of noncompliance
regarding its subsequent violations from the DWC for
several years resulted in a staggeringly high-dollar
aggregate total of per diem fines.5 However,
responsibility for that unfortunate circumstance rests
squarely on the shoulders of Dami, and perhaps its
5

Indeed, this case featured prominently in the legislature’s
decision to amend section 8-43-409 in 2017 to limit the maximum
period for which fines can be imposed to “three years prior to the
date an employer is notified by the division of a potential
violation.” § 8-43-409(c). See David Gallivan, HB 17-1119 Brings
Reform to Workers’ Compensation, 46 Colo. Law., Nov. 2017, at 58,
59.

App. 22
business advisors. Dami was in fact well aware that it
had an obligation to carry workers’ compensation
insurance and that it would be subject to daily fines for
noncompliance; at the very moment that the company
allowed its insurance to lapse in 2006 it was in the
process of settling with the DWC for a year-long period
of noncompliance during 2005 and 2006. Moreover,
under the workers’ compensation statutes, it is the
employer who is responsible for ensuring that it is in
compliance with the obligation to carry insurance. The
statute makes plain—by excluding any mens rea
element and imposing a daily fine for each day that an
employer fails to have insurance or allows its insurance
to lapse—that the legislature intended that a violation
of section 8-43-409(1)(b)(II) be a strict-liability offense.
¶35 There are good and practical reasons for putting
the burden on the employer, and not on the DWC, to
ensure compliance. First, workers’ compensation
insurance is not paid to or by the DWC. Instead, it is
private insurance coverage that an employer purchases
from an insurance company. See Division of Workers’
Compensation, Employer’s Guide 2 (Dec. 2015).6 The
employer is therefore in a better position than the
DWC to know whether it has obtained the required
coverage. Second, the lack of a mens rea element in the
requirement to maintain coverage discourages both
negligent noncompliance (where an employer should
have known that coverage was lacking) on the one

6

We take judicial notice of this official publication, as it appears on
the Colorado Department of Labor and Employment’s website. See
https://www.colorado.gov/pacific/sites/default/files/Employers_G
uide_2015.pdf [https://perma.cc/6TVT-DS7J].

App. 23
hand, and gamesmanship (where an employer knew
coverage was lacking but willfully failed to procure or
maintain a compliant policy) on the other. Adopting a
rule that focuses on the proportionality of the
aggregate of daily fines, rather than the proportionality
of each daily fine, would actually incentivize employers
to forego workers’ compensation coverage for as long as
possible, hoping that the DWC would not notice until
the fines had accrued for an extended period of time so
that they could then argue that the fine for
noncompliance was excessive.
¶36 We thus cannot allow the size of aggregated per
diem fines in this case to distort our Eighth
Amendment jurisprudence more generally.7 When a
fine is imposed on a per diem basis, with each day
constituting an independent violation, the evaluation
of whether a fine is excessive must be done with
reference to each individual daily fine.
III. Remand
¶37 There is scant evidence in the record before us,
particularly about Dami’s ability to pay the daily fines.
Dami asserted in a letter to the DWC that it could not
pay without going out of business. Dami did not
request the evidentiary hearing to which it was entitled
in order to develop a record supporting that claim.

7

Dami’s arguments about lack of notice and the consequent length
of the period of noncompliance are more properly understood as
supporting a due process claim that is outside the scope of the
issues upon which we granted certiorari. The fact that the DWC
did not catch Dami’s noncompliance for a number of years is not
relevant to the Eighth Amendment argument.

App. 24
Moreover, because the test we announce today is a new
one in Colorado, we remand to the court of appeals so
that it can return the case to the DWC. Assuming it is
appropriate or necessary to conduct an evidentiary
hearing at this stage, the DWC should permit the
parties to develop a record that permits a complete
evaluation of whether the $250-$500 fine imposed on
Dami each day that it violated the workers’
compensation laws was constitutionally excessive in
accordance with this opinion.
III. Conclusion
¶38 In sum, we hold that the Eighth Amendment
does protect corporations from punitive fines that are
excessive. The appropriate test to apply in assessing
whether a regulatory fine violates the Excessive Fines
Clause is the “gross disproportionality” test. In
assessing proportionality, a court should consider
whether the gravity of the offense is proportional to the
severity of the penalty, considering whether the fine is
harsher than fines for comparable offenses in this
jurisdiction or than fines for the same offense in other
jurisdictions. In considering the severity of the penalty,
the ability of the regulated individual or entity to pay
is a relevant consideration. And the proportionality
analysis should be conducted in reference to the
amount of the fine imposed for each offense, not the
aggregated total of fines for many offenses.
¶39 We therefore reverse the ruling of the court of
appeals and remand this case for return to the DWC so
that the DWC can, as necessary and appropriate,
permit the development of an evidentiary record

App. 25
sufficient to allow the application of this Excessive
Fines Clause analysis.
JUSTICE SAMOUR concurs in part and dissents in
part.
JUSTICE HOOD does not participate.
JUSTICE SAMOUR, concurring in part and dissenting
in part.
¶40 My colleagues in the majority and I are generally
on the same page in this case. I write separately
because I disagree that the proportionality analysis
must be conducted with regard to each individual per
diem fine, as opposed to the total fine of $841,200. Like
the court of appeals, I would focus on the aggregate fine
that the Director imposed, which is what triggered
Dami’s appeal. Dami has never argued that the daily
fine of $250 to $500 is unconstitutionally excessive;
rather, Dami has contended all along that the $841,200
fine is.
¶41 I agree that section 8-43-409(1), C.R.S. (2018),
required the Director to impose a penalty on Dami, and
that once Dami obtained insurance coverage (after
receiving the notice from the Director), the only
available penalty was a fine of between $250 and $500
for every day Dami was noncompliant.1 But the penalty

1

The statute also contemplates a cease-and-desist order and an
order for injunctive relief as potential penalties. See § 8-43-409(4)
(“The issuance of an order to cease and desist, the imposition of a
fine . . . , or the issuance of an order for injunctive relief . . . shall
be the penalty . . . .”). However, issuing such an order after Dami

App. 26
imposed in October 2014—the state action Dami
complains about—was the $841,200 fine, not the per
diem rate of $250 to $500. As the majority
acknowledges, the Director did not send Dami a notice
at the beginning of the violation period to inform it that
he intended to impose a prospective fine of $250 to
$500 every day until it obtained the required
insurance. Maj. op. ¶ 34. Had he done so, I might
accept looking at the daily fine to determine
constitutional proportionality. Instead, he waited more
than seven years to contact Dami about a purported
violation and then imposed a retroactive fine of almost
a million dollars.2 To be sure, Dami, as an employer,
was responsible for complying with section 8-43-409(1).
Id. But I nevertheless find it troubling that, under
today’s decision, if the Director retroactively imposes a
“staggeringly high-dollar aggregate” fine, id., simply
because he delayed taking action to correct a potential
violation, the employer’s only recourse is to argue that
the daily fine amount is excessive.
¶42 The majority today holds that the Eighth
Amendment offers Dami protection against excessive
fines. Id. at ¶¶ 18, 26, 38. I wholeheartedly agree.
Unfortunately, the majority opinion, at least in this
context, has no teeth because it says that Dami is
had come into compliance with the insurance mandate wouldn’t
have made sense.
2

Dami went without coverage between August 10, 2006 and June
8, 2007, and again between September 12, 2010 and July 9, 2014.
The Director did not attempt to notify Dami about a potential
violation until February 19, 2014. He then waited until June 25,
2014, to mail a second notice to a different address.

App. 27
restricted to challenging the daily fine amount. That’s
where the majority and I part company. I would
conclude that, to be meaningful, the proportionality
analysis has to focus on the total fine the Director
required Dami to pay ($841,200), not the daily fine
amount ($250 to $500) used to calculate the total fine.
In my view, to focus on the daily fine amount instead of
the total fine Dami must pay renders the entire
constitutional analysis an exercise in futility.
¶43 Notably, under the majority’s analytical
framework, if the Director had waited twelve years to
contact Dami and then imposed a retroactive fine of
over two million dollars ($500 × 4,380 days), the
outcome would be identical: Dami would still be limited
to challenging whether the daily fine amount of $250 to
$500 is excessive. The same would be true if the
Director had contacted Dami within a month of a
potential violation and imposed a total fine of only
$15,000 ($500 × 30 days). Stated differently, whether
a fine of over two million dollars is excessive and
whether a fine of $15,000 is excessive both depend on
whether the daily fine amount of $250 to $500 is
excessive. Hence, in evaluating the constitutionality of
a section 8-43-409 fine under the Eighth Amendment’s
Excessive Fines Clause, the majority renders the total
amount of the fine imposed completely inconsequential.
To my mind, that greatly risks immunizing the
Director and the statute from constitutional attack
under the Eighth Amendment.3 So long as the daily
3

In some circumstances, such as when a fine is the only feasible
penalty, the Director is required by the statute to impose a
retroactive fine, the total amount of which is calculated by

App. 28
fine amount is not excessive, it matters not whether
the Director imposes a $1,000 fine or a $10,000,000
fine.
¶44 The reality here is that the Director imposed a
one-time, aggregate fine retroactively when he advised
Dami in October 2014 that it was required to pay
$841,200. He did not impose a fine in the amount of
$250 to $500 1,698 times (a fine each day Dami was in
violation of section 8-43-409(1)).4 Given that the Eighth
Amendment’s Excessive Fines Clause applies, Dami
should be allowed to challenge the constitutionality of
the Director’s action—i.e., the one-time, aggregate fine
imposed after the fact in October 2014.
¶45 Accordingly, like the majority, I would reverse
the judgment of the court of appeals and remand the
case with instructions to have it returned to the
Division of Workers’ Compensation. However, I would
do so on slightly different grounds. For this reason, I
respectfully concur in part and dissent in part.

multiplying the number of days an employer was noncompliant
times $250 to $500.
4

I understand that section 8-43-305, C.R.S. (2018), provides that
“[e]very day during which any employer . . . fails to perform any
duty imposed by articles 40 to 47 of this title shall constitute a
separate and distinct violation thereof.” But the fact remains that
the Director imposed a one-time, aggregate, retroactive fine in the
amount of $841,200.

App. 29

APPENDIX B
COLORADO COURT OF APPEALS
2017 COA 21
Court of Appeals No. 16CA0249
Industrial Claim Appeals Office of the
State of Colorado
W.C. No. 84-1545878
[Filed February 23, 2017]
___________________________________
Dami Hospitality, LLC,
)
)
Petitioner,
)
)
v.
)
)
Industrial Claim Appeals Office
)
of the State of Colorado and
)
Division of Workers’ Compensation, )
)
Respondents.
)
___________________________________ )
ORDER SET ASIDE AND CASE
REMANDED WITH DIRECTIONS

App. 30
Division III
Opinion by JUDGE WEBB
Dunn and Davidson*, JJ., concur
Announced February 23, 2017
Law Offices of Daniel T. Goodwin, Daniel T. Goodwin,
Caroline R. Kert, Paige Orgel, Broomfield, Colorado, for
Petitioner
No Appearance for Respondent Industrial Claim
Appeals Office
Cynthia H. Coffman, Attorney General, Emmy A.
Langley, Assistant Attorney General, Denver,
Colorado, for Respondent Division of Workers’
Compensation
¶1
Is a fine of $841,200 imposed by the Division of
Workers’ Compensation (the division) on a small
employer for having failed over several years to
maintain workers’ compensation insurance excessive
under the Eighth Amendment?1 On the particular facts
presented, which include a failure to perform the
required fact-specific constitutional analysis, we
answer this novel question “yes.”
¶2
The employer, Dami Hospitality, LLC, appeals
the fine as unconstitutional, challenging the underlying

*

Sitting by assignment of the Chief Justice under provisions of
Colo. Const. art. VI, § 5(3), and § 24-51-1105, C.R.S. 2016.

1

Because the wording of Colorado Constitution article II, section
20 is identical, we do not address it separately.

App. 31
statute both facially and as applied; as contrary to
other provisions of the Workers’ Compensation Act of
Colorado, sections 8-40-101 to 8-47-209, C.R.S. 2016
(the Act); and as a procedural due process violation.
¶3
We uphold the facial constitutionality of section
8-43-409, C.R.S. 2016, the statute underlying the fine.
But on an as-applied basis, we conclude that because
the Director of the division (Director) failed to apply
the excessive fine factors adopted under the Eighth
Amendment to the particular facts that Dami
presented, the fine must be set aside as excessive. We
reject Dami’s remaining contentions.
¶4
Therefore, we set aside the decision of the
Industrial Claim Appeals Office (Panel) affirming the
Director’s decision and remand the case to the Panel
with directions to order the Director to reconsider
imposing a fine calculated according to this opinion.
I. Background and Procedural History
¶5
Dami operates a motel in Denver, Colorado. For
a period in 2006, Dami failed to carry workers’
compensation insurance as required by section 8-43409. It was fined approximately $1200 for that
violation, paid the fine, and obtained the necessary
insurance.
¶6
In 2014, the division notified Dami that it was
again without workers’ compensation insurance and
had been for periods during 2006 and 2007, as well as
from September 2010 through the date of the division’s
notice. The Director’s “Notice to Show Compliance”
advised Dami that within twenty days it had to answer
an attached questionnaire, had to submit documents

App. 32
establishing coverage, and could “request a prehearing
conference on the issue of default.” Dami admits that it
received this notice on June 28, 2014, but denies
having received a notice the division said had been sent
four months earlier. Although Dami obtained the
necessary insurance by July 9, 2014, it neither
submitted a response to the Notice to Show Compliance
nor requested a prehearing conference.2
¶7
Information provided by the division’s coverage
enforcement unit — which Dami does not contest —
showed that Dami had been without coverage from
August 10, 2006, through June 8, 2007, and again from
September 12, 2010, through July 9, 2014. On this
basis, the Director fined Dami from $250 to $400 per
day, through September 18, 2006. From September 19,
2006, through June 8, 2007, and from September 12,
2010, through July 9, 2014, Dami was fined $500 per
day. The Director calculated the fine based on the
formula adopted by the division under section 8-43409(1)(b)(II) in Department of Labor & Employment
Rule 3-6, 7 Code Colo. Regs. 1101-3 (Rule 3-6),
discussed in Part III.B below.

2

Section 8-43-409, C.R.S. 2016, requires the Director to notify an
employer “of the opportunity to request a prehearing conference on
the issue of default.” However, the statute does not define
“default.” Such a request must be made within twenty days of the
notice. And an employer is not entitled to a hearing as a matter of
right. Rather, “if necessary, the [D]irector may set the issue of the
employer’s default for hearing.” § 8-43-409(1) (emphasis added).
The statute is also silent whether the division may request a
hearing or the Director may hold one sua sponte.

App. 33
¶8
Dami’s owner, Soon Pak, sent a letter to the
Director captioned “Petition to Review,” asking the
Director to reconsider the fine. The Director treated the
letter as a petition to review his findings of fact,
conclusions of law, and order.
¶9
In the letter/petition, Ms. Pak explained that she
“believed” the insurance policies she obtained for the
motel had “included the required coverage.” She
blamed her insurance agent for the lapse in coverage,
asserting that her trust “in insurance professionals to
quote and secure . . . competitive workmen’s
compensation insurance” was “obviously” misplaced.
The petition also asked the Director to reduce the
penalty because “$842,000 is more that [sic] my
business grosses in one year. . . . My payroll each year
is less than $50,000 per year. . . . If the penalty stands
as presented, I have no choice but to declare personal
and business bankruptcy and go out of business.”
¶ 10 In a letter that Ms. Pak’s insurance agent
submitted to the Director, the agent accepted
responsibility for the lack of workers’ compensation
insurance: “I think I feel part of responsibility for this
matter that I did not tell about Worker’s Compensation
and I will be managing my client in the future. . . .
Actually she confused Property Insurance and Worker’s
Compensation.” Later, Dami’s counsel filed a brief in
support of the petition to review. Attached to the brief
was Ms. Pak’s affidavit reiterating her reliance on the
insurance agent.
¶ 11 In a supplemental order following Dami’s
petition and brief, the Director again ordered Dami to
pay the fine. He found that because of the earlier fine,

App. 34
Dami had been aware of the need to maintain
insurance and failure to do so was within its control. As
for Dami’s asserted inability to pay, the Director
concluded that neither section 8-43-409 nor Rule 3-6(D)
contains “an exclusion or exemption from incurring and
paying a fine based upon a Respondent’s financial
inability to pay.”
¶ 12 On Dami’s appeal of the supplemental order, the
Panel remanded the case to the Director. It held that
the Director had failed to consider the factors set out in
Associated Business Products v. Industrial Claim
Appeals Office, 126 P.3d 323 (Colo. App. 2005), to
protect against constitutionally excessive fines or
penalties. The Panel summarized those factors as
follows:
• the degree of reprehensibility of the defendant’s
misconduct;
• the disparity between the harm or potential
harm suffered and the fine to be assessed; and
• the difference between the fine imposed and the
penalties authorized or imposed in comparable
cases.
¶ 13 Without taking additional evidence, the Director
issued an order on remand. Still, the Director did not
analyze the factors that Dami had presented under
Associated Business Products. Instead, he concluded
that because Rule 3-6 inherently incorporates these
factors, no further consideration was necessary. Then
for the third time, the Director ordered Dami to pay a
fine of $841,200.

App. 35
¶ 14 Again, Dami appealed. But this time the Panel
agreed with the Director’s analysis and affirmed the
order on remand. The Panel’s decision is now before us.
II. Was Dami Deprived of Procedural Due Process?
¶ 15 Although procedural due process is not Dami’s
primary argument, we begin there because if Dami is
correct, the fine must be set aside and the broader
constitutional issues would no longer be ripe for
decision. Courts “have a duty to decide constitutional
questions when necessary to dispose of the litigation
before them. But they have an equally strong duty to
avoid constitutional issues that need not be resolved in
order to determine the rights of the parties to the case
under consideration.” Cty. Court v. Allen, 442 U.S. 140,
154 (1979); see also People v. Montour, 157 P.3d 489,
503-04 (Colo. 2007) (Under “the doctrine of
constitutional avoidance, . . . courts have a duty to
interpret a statute in a constitutional manner where
the statute is susceptible to a constitutional
construction.”). However, we discern no due process
violation.
¶ 16 On procedural due process grounds, Dami
challenges the method by which it was notified that it
lacked workers’ compensation insurance, explaining
“common sense indicates that simple notice by mail is
not reasonable.” Alternatively, it argues that a hearing
should have been held before the fine was imposed.
Neither of these assertions provides a basis for setting
aside the Panel’s order.
¶ 17 The “fundamental requisites of procedural due
process are notice and the opportunity to be heard.”

App. 36
Kuhndog, Inc. v. Indus. Claim Appeals Office, 207 P.3d
949, 950 (Colo. App. 2009).
¶ 18 The Director’s Notice to Show Compliance,
informing Dami of its “subsequent violation” of section
8-43-409 for failure to carry workers’ compensation
insurance, appears to have been mailed to the address
the division had on file for Dami. Dami does not point
to any evidence in the record that it had ever advised
the division of a new mailing address.
¶ 19 More importantly, despite Dami’s argument that
notice was inadequate, Ms. Pak admitted in her
affidavit to the Director that she had received a second
notice in June 2014, just four months after the first
notice of subsequent violation had been mailed. Dami
does not assert that the passage of these four months
created constitutional prejudice. And when a party has
received actual notice of an agency’s action, the party
cannot claim a procedural due process violation based
on an alleged defect in the method of giving notice. See
Amos v. Aspen Alps 123, LLC, 2012 CO 46, ¶¶ 1, 20
(“We conclude that when the parties received actual
notice which afforded them an opportunity to present
their objections and no prejudice resulted, we will not
disturb a completed foreclosure sale.”); see also Baker
v. Latham Sparrowbush Assocs., 72 F.3d 246, 254 (2d
Cir. 1995) (“If a party receives actual notice that
apprises it of the pendency of the action and affords an
opportunity to respond, the due process clause is not
offended.”).
¶ 20 Dami’s assertion that a hearing should have
been held fares no better. In responding to the Notice
to Show Compliance, Dami never asked for a

App. 37
prehearing conference.3 Nor did Dami request a
remand hearing in its first appeal to the Panel. And
Dami does not offer any supporting authority or legal
argument for the assertion that despite its own
inaction, a hearing should have been held.
¶ 21 Instead, Dami argues only that, “reading
between the lines,” the division failed to follow the
Panel’s “suggestion” that the Director hold a hearing.
But “[g]iven the dearth of legal grounds offered,” we
decline to address this issue on its merits. Meza v.
Indus. Claim Appeals Office, 2013 COA 71, ¶ 38; see
also Antolovich v. Brown Grp. Retail, Inc., 183 P.3d
582, 604 (Colo. App. 2007) (declining to address
“underdeveloped arguments”).
¶ 22 For these reasons, we conclude that Dami has
not articulated a cognizable claim for due process
violations based on either inadequacy of the notice or
failure to hold a hearing.
III. Was the Fine Imposed on Dami
Constitutionally Excessive?
A. Dami’s Excessive Fine Arguments
¶ 23 Dami challenges the $841,200 fine on three
grounds.

3

Dami did not contest the wording of the notice below and does not
do so on appeal. For that reason, we do not address what “you may
request a prehearing conference on the issue of default” would
mean to a reasonable person. Be that as it may, lack of a hearing
at which the record could have been more fully developed plagues
this appeal.

App. 38
¶ 24 First, Dami argues that section 8-43-409 is
unconstitutional on its face. According to Dami, the
General Assembly’s removal of a penalty cap from the
statute in 2005, plus the absence of any statutory
deadline within which the Director must notify an
employer that it is in violation of the mandate to carry
workers’ compensation insurance, effectively grants the
Director “complete discretion regarding the timing of
notice and thus the size of the fine.” Dami points out
that this lack of any deadline — combined with the
Director’s formulaic approach in imposing the fine —
resulted in a penalty grossly disproportionate both to
the fines anticipated by the legislature and to the risk
of harm to Dami’s employees.
¶ 25 Second, arguing unconstitutionality as applied,
Dami asserts that because the Director wrongly
deemed the Associated Business Products factors for
weighing excessive fines incorporated into Rule 3-6, the
Director abused his discretion in failing to apply the
factors to Dami’s particular situation.
¶ 26 Third, Dami argues that the fine is grossly
disproportionate both to its ability to pay and to the
harm caused by the lack of workers’ compensation
insurance. It asserts the Director should also have
considered its ability to pay when weighing the
constitutionality of the fine.
¶ 27 Although we do not discern a facial flaw in the
statute, we conclude that its application violated
Dami’s constitutional protections against excessive
fines. In so concluding, we agree with Dami that
because the constitutional factors are not sufficiently
incorporated into Rule 3-6, the Director abused his

App. 39
discretion in failing to consider facts specific to Dami —
including Dami’s ability to pay — when he reimposed
the fine after the Panel had directed him to address the
Associated Business Products factors.
B. Statutory and Regulatory Provisions at Issue
¶ 28 Dami was fined under section 8-43-409, which
requires the Director to order the violating employer
“to cease and desist immediately from continuing its
business operations during the period such default
continues,” or
(b) For every day that the employer fails
or has failed to insure or to keep the
insurance required by articles 40 to 47 of
this title in force, allows or has allowed
the insurance to lapse, or fails or has
failed to effect a renewal of such coverage,
impose a fine of:
....
(II) Not less than two hundred fifty
dollars or more than five hundred dollars
for a second and any subsequent
violation.
§ 8-43-409(1).
¶ 29 To implement this provision, the division
adopted Rule 3-6. As pertinent here, the rule provides:
3-6 FINES FOR DEFAULTING
EMPLOYER
(A) Following the Director’s
determination that an employer has

App. 40
failed to obtain the required insurance or
has failed to keep such insurance in force
or has allowed the insurance to lapse or
has failed to renew such insurance, the
Director will impose fines on the
defaulting employer and/or will compel
the employer to cease and desist its
business operations.
....
(D) For the Director’s finding of an
employer’s second and all subsequent
defaults in its insurance obligations, daily
fines from $250/day up to $500/day for
each day of default will be assessed in
accordance with the following schedule of
fines until the employer complies with the
r e q u i r e m e nt s o f t h e W o r k e r s ’
Compensation Act regarding insurance or
until further order of the Director:
Class VII

1-20 Days

$250/Day

Class VIII

21-25 Days $260/Day

Class IX

26-30 Days $280/Day

Class X

31-35 Days $300/Day

Class XI

36-40 Days $400/Day

Class XII

41 Days

$500/Day

C. Facial Challenge to Section 8-43-409
¶ 30 “A law is void for vagueness where its
prohibitions are not clearly defined.” People v. Baer,

App. 41
973 P.2d 1225, 1233 (Colo. 1999). “Vague laws are
unconstitutional and ‘offend due process because they
(1) fail to give fair notice of the conduct prohibited, and
(2) do not supply adequate standards for those who
apply them in order to prevent arbitrary and
discriminatory enforcement.’” Denver Health & Hosp.
Auth. v. City of Arvada, 2016 COA 12, ¶ 14 (quoting
Baer, 973 P.2d at 1233) (cert. granted in part Sept. 12,
2016). Even so, a “facial challenge to a legislative Act
is, of course, the most difficult challenge to mount
successfully, since the challenger must establish that
no set of circumstances exists under which the Act
would be valid.” United States v. Salerno, 481 U.S. 739,
745 (1987). And at least in Colorado, “[t]he party
challenging the facial constitutionality of a statute has
the burden of showing the statute is unconstitutional
beyond a reasonable doubt.” Hinojos-Mendoza v.
People, 169 P.3d 662, 668 (Colo. 2007).4
¶ 31 First, we reject Dami’s assertion that the
absence of a penalty cap renders the statute
unconstitutional.5
¶ 32 For purposes of the Eighth Amendment, “[t]he
notion of punishment, as we commonly understand it,
cuts across the division between the civil and the

4

In Tabor Foundation v. Regional Trans. Dist., 2016 COA 102, our
supreme court has granted certiorari to consider this standard.
16SC639, 2017 WL 280826 (Colo. Jan. 23, 2017).
5

Section 8-43-409 was amended in 2005 to remove the cap that
had prohibited any penalty from “exceed[ing] the annual cost of the
insurance premium that would have been charged for such
employer.” Ch. 49, sec. 1, § 8-43-409, 2005 Colo. Sess. Laws 199.

App. 42
criminal law.” Austin v. United States, 509 U.S. 602,
610 (1993) (quoting United States v. Halper, 490 U.S.
435, 447-48 (1989)).
¶ 33 Numerous sentencing cases have held that the
absence of a maximum cap does not invalidate a
statute. For example,
[s]uch a statute is not subject to the
attack that it is void because it is vague
and indefinite. There are many laws such
as this upon the statute books of the
Federal Government, as well as of the
various states, fixing a minimum
sentence and leaving it within the power
of the court to fix the maximum
sentences. In every instance the validity
of such statutes has been upheld.
Binkley v. Hunter, 170 F.2d 848, 849 (10th Cir. 1948);
see also United States v. Kuck, 573 F.2d 25, 26 (10th
Cir. 1978) (“A sentencing statute is not
unconstitutional because of failure to provide a
maximum term.”).
¶ 34 In contrast, Dami has not cited authority holding
a statute that imposes a fine or penalty facially
unconstitutional for lack of a cap. Nor have we found
any such authority in Colorado.
¶ 35 Looking outside of Colorado, the notion that the
absence of a maximum fine renders a statute facially
unconstitutional “represents the clear minority rule on
the issue. In fact, the majority of courts considering
this issue have upheld the constitutionality of statutes
which set a minimum fine or punishment but which do

App. 43
not prescribe a maximum fine or punishment.” State v.
Taylor, 70 S.W.3d 717, 721 (Tenn. 2002); see, e.g.,
United States v. Hayes, 589 F.2d 811, 825 (5th Cir.
1979) (“While the statute does not provide for a specific
maximum sentence in situations of life imprisonment
for the principal, failure to provide a clearer maximum
possible sentence does not render the statute
constitutionally infirm. Leaving the determination of
maximum sentences to the court is not uncommon.”)
(citation omitted); Ex parte Robinson, 474 So. 2d 685,
686 (Ala. 1985); State v. Nelson, 11 A.2d 856, 862
(Conn. 1940); Mannon v. State, 788 S.W.2d 315, 322
(Mo. Ct. App. 1990) (“A statute which fixes a minimum
punishment but provides no maximum term is neither
constitutionally invalid nor void because of
indefiniteness.”).
¶ 36 Second, we reject Dami’s assertion that the
absence of a deadline for division action against an
employer lacking insurance — which allows the fine to
ratchet up — renders the statute facially
unconstitutional. Again, Dami has not offered any
cases supporting its position. To the contrary,
substantial authority suggests the opposite.
¶ 37 To begin, the Supreme Court has upheld a
court’s authority to impose daily fines under a statute
that lacked both a cap and a deadline for notifying the
offending parties of accumulating fines. United States
v. ITT Cont’l Baking Co., 420 U.S. 223, 243 (1975)
(remanding for recalculation of daily fines under the
Clayton and Federal Trade Commission Acts).
¶ 38 Likewise under Colorado law, daily penalties
that accumulated for continuing violations have been

App. 44
upheld. See Crowell v. Indus. Claim Appeals Office,
2012 COA 30, ¶ 15 (“[W]hen there is ongoing conduct,
the continuation of the penalty is mandatory, rather
than discretionary.”); Pueblo Sch. Dist. No. 70 v. Toth,
924 P.2d 1094, 1100 (Colo. App. 1996) (mandating
imposition of the penalty at a “daily rate” where
violation was continuing).
¶ 39 Some lower federal courts have taken the same
approach. In Center for Biological Diversity v. Marina
Point Development Associates, 434 F. Supp. 2d 789
(C.D. Cal. 2006), for example, the defendants were
found to have been in violation of the Clean Water Act
from at least October 2002 to 2006. Because they were
subject to daily penalties of $27,500 to $32,500 over the
course of their violations, “the maximum penalty” could
have been as high as “$15,445,000.” Id. at 799. The
court imposed a penalty of $2500 for each day of
violation “from October 7, 2002 to April 16, 2004,”
totaling $1,312,500. Id. at 800. Similarly, in Honey v.
Dignity Health, 27 F. Supp. 3d 1113 (D. Nev. 2014),
daily penalties were imposed against an employer for
violating the notice provision in the Consolidated
Omnibus Budget Reconciliation Act (COBRA), 29
U.S.C. §§ 1161-1169 (2012). The court noted that it
“ha[d] discretion to impose a penalty and to set its
amount, subject only to a $110 per day statutorily set
maximum.” Honey, 27 F. Supp. 3d at 1124.
¶ 40 None of the courts in these cases pondered
whether the fines should be tempered because the
underlying statutes did not require the regulating
authorities to provide timely notice of a violation.
Instead, at least as best we can determine, like Rome

App. 45
burning as Nero fiddled, fines mounted while the
regulators said nothing.6
¶ 41 Given all this, we conclude that Dami has not
met its burden of showing that section 8-43-409 is
facially unconstitutional beyond a reasonable doubt.
Even so, our inquiry does not end, as the statute’s
application in this case could still be unconstitutional.
D. As-Applied Constitutional Challenges to Fines
¶ 42 Dami’s as-applied challenge to section 8-43-409
differs from its facial challenge to the statute.
A plaintiff bringing an “as-applied”
challenge contends that the statute would
be unconstitutional under the
circumstances in which the plaintiff has
acted or proposes to act. If a statute is
held unconstitutional “as applied,” the
statute may not be applied in the future
in a similar context, but the statute is not
rendered completely inoperative.
Sanger v. Dennis, 148 P.3d 404, 410 (Colo. App. 2006).
“For as-applied constitutional challenges, the question
6

To be sure, Dami might distinguish some of these cases on the
basis that the party fined could not dispute its knowledge of the
conduct triggering the fine. For example, Crowell v. Industrial
Claim Appeals Office, 2012 COA 30, involved the employer’s
affirmative action. In contrast, Dami maintains that it did not
know the insurance coverage had lapsed. But Dami’s alleged
ignorance can be addressed under reprehensibility, one of the
factors from Associated Business Products v. Industrial Claim
Appeals Office, 126 P.3d 323 (Colo. App. 2005), as discussed in Part
III.D.4.a below.

App. 46
is whether the challenging party can establish that the
statute is unconstitutional ‘under the circumstances in
which the plaintiff has acted or proposes to act.’” Qwest
Servs. Corp. v. Blood, 252 P.3d 1071, 1085 (Colo. 2011)
(quoting Developmental Pathways v. Ritter, 178 P.3d
524, 534 (Colo. 2008)). Yet again, “the burden of
establishing the unconstitutionality of a statute, as
applied, [is] beyond a reasonable doubt.” People v.
Gutierrez, 622 P.2d 547, 555 (Colo. 1981).
¶ 43 Statutory penalties, like those assessed under
section 8-43-409, are subject to the constitutional
prohibition against excessive fines. See Associated Bus.
Prods., 126 P.3d at 326; Wolford v. Pinnacol Assurance,
81 P.3d 1079, 1084 (Colo. App. 2003), rev’d on other
grounds, 107 P.3d 947 (Colo. 2005). The Eighth
Amendment provides that “[e]xcessive bail shall not be
required, nor excessive fines imposed, nor cruel and
unusual punishment inflicted.”
¶ 44 As a division of this court noted, the Supreme
Court first applied this provision to “civil cases where
the government seeks, at least in part, to punish a
party” in 1993, when it announced Austin v. United
States, 509 U.S. 602 (1993). Toth, 924 P.2d at 10991100. In Austin, the Supreme Court applied the Eighth
Amendment to an in rem civil forfeiture, noting that
“the question is not . . . whether forfeiture . . . is civil or
criminal, but rather whether it is punishment.” Austin,
509 U.S. at 610. After Austin, fines assessed for noncriminal statutory violations have been subject to the
Eighth Amendment’s protections against excessive
fines.

App. 47
¶ 45 More recently, Colorado courts have applied the
constitutionally excessive limitation to civil fines. See
Associated Bus. Prods., 126 P.3d at 326; Boulder Cty.
Apartment Ass’n v. City of Boulder, 97 P.3d 332, 338
(Colo. App. 2004). But exactly when is a fine excessive?
¶ 46 The Supreme Court has held that a civil fine is
excessive “if it is grossly disproportional to the gravity
of a defendant’s offense.” United States v. Bajakajian,
524 U.S. 321, 334 (1998). Likewise, a division of this
court has said that a penalty “is excessive if the
amount is so disproportionate to a defendants [sic]
circumstances that there can be no realistic expectation
that the defendant will be able to pay it.” Boulder Cty.
Apartment Ass’n, 97 P.3d at 338.
¶ 47 This much is clear: the principle of
proportionality encompassed in the constitutional
protection against excessive fines “is that the
punishment should fit the crime.” Id. at 337. Yet, “[i]f
this principle were as easy of application as it is of
statement, we should have little difficulty; but, like
many another simple and plain principle, its
application to concrete facts is sometimes very
difficult.” Lovejoy v. Denver & Rio Grande R.R. Co., 59
Colo. 222, 229, 146 P. 263, 265 (1915). Taking up that
task, we start with the standard of review.
1. Standard of Review
¶ 48 The party challenging a fine bears the “the
burden of proving the fine is ‘grossly disproportionate.’”
Associated Bus. Prods., 126 P.3d at 326 (quoting Toth,
924 P.2d at 1100). But deciding whether that burden

App. 48
has been met implicates conflicting standards of
appellate review.
¶ 49 On the one hand, “when a punitive damages
award is reviewed for excessiveness under the Due
Process Clause and the Eighth Amendment, a de novo
standard of review should be applied.” Id. at 325. And
as discussed in Part III.D.4 below, courts have applied
de novo the punitive damages criteria in deciding
whether a civil fine or penalty is excessive.
¶ 50 On the other hand, “[a] trial court enjoys
considerable discretion in assessing a penalty.” Colo.
Dep’t of Pub. Health & Env’t v. Bethell, 60 P.3d 779,
787 (Colo. App. 2002). Similarly, “[a]n [administrative
law judge] has discretion to determine the amount of
the penalty, provided that the amount does not exceed
the legislatively enacted penalty range.” Crowell, ¶ 17.
And as explained in the prior subsection, the statute
before us no longer caps the fine.
¶ 51 Likewise, as to statutes underlying civil
penalties, “legislatures have extremely broad discretion
in setting the range of permissible punishments for
statutorily enumerated offenses and . . . judicial
decisions operating within the legislatively enacted
guidelines are typically reviewed for abuse of
discretion.” Associated Bus. Prods., 126 P.3d at 325
(citing Cooper Indus., Inc. v. Leatherman Tool Grp., 23
Inc., 532 U.S. 424, 432 (2001)). And here, because the
rule that the Director applied tracks the statute, his
decision enjoys the same protection.
¶ 52 True, this case does not involve a punitive
damages award, as in Cooper Industries. But like the

App. 49
challenge in Associated Business Products, Dami asks
us to examine the excessiveness of a “legislatively
enacted penalt[y],” which is also reviewed de novo.
Associated Bus. Prods., 126 P.3d at 325.
¶ 53 An abuse of discretion occurs when the fact
finder enters an order that is unsupported by the
evidence or misapplies or is contrary to the law.
Heinicke v. Indus. Claim Appeals Office, 197 P.3d 220,
222 (Colo. App. 2008). As has been so often stated,
discretion is abused when the decision “is manifestly
arbitrary, unreasonable, unfair, or misapplies the law.”
Patterson v. BP Am. Prod. Co., 2015 COA 28, ¶ 67.
¶ 54 Associated Business Products recognized — but
did not resolve — the tension between de novo review
and review for an abuse of discretion. And where a
constitutional interest is in play, sometimes the latter
bleeds into the former. Cf. People v. Dunham, 2016
COA 73, ¶ 13 (“Ordinarily, we review a defendant’s
preserved contention that the trial court erred in
limiting cross-examination of a witness for an abuse of
discretion. But where, as in this case, a defendant
contends that the trial court so excessively limited his
cross-examination of a witness as to violate the
Confrontation Clause, see U.S. Const. amend. VI, we
review that contention de novo.”) (citations omitted). In
any event, we avoid reconciling this tension because
ultimately we conclude that the Director abused his
discretion by misapplying the law.
2. Constitutional Protections Afforded Corporations
¶ 55 In its answer brief, the division preliminarily
questions whether the Eighth Amendment’s excessive

App. 50
fines protections even apply to corporations. The
answer to this question is unresolved in Colorado and
unclear elsewhere. We conclude that corporations enjoy
these protections.
¶ 56 To begin, the cases relied on by the division, as
well as the opinions of several other courts, have
assumed that corporations are entitled to the Eighth
Amendment’s protections. See, e.g., United States v.
Pilgrim Mkt. Corp., 944 F.2d 14, 22 (1st Cir. 1991) (“We
will assume for purposes of our discussion that the
eighth amendment proscription against excessive fines
applies to corporations, although this is a very tenuous
assumption.”); United States v. Seher, 686 F. Supp. 2d
1323, 1327 n.2 (N.D. Ga. 2010) (“The Court assumes
that the corporate Defendants are entitled to raise an
Eighth Amendment challenge. Whether the protections
of the Eighth Amendment extend to a corporation is an
open question that remains unaddressed by this Circuit
or the Supreme Court.”), aff’d sub nom. United States
v. Chaplin’s, Inc., 646 F.3d 846, 851 n.15 (11th Cir.
2011) (“Our analysis assumes, but does not hold, that
the Eighth Amendment applies to corporations. The
Supreme Court has never held that this amendment
applies to corporations.”).7
¶ 57 But despite these cases, we decline to reach the
as-applied Eighth Amendment question by the
expedient of assuming without deciding the
7

Other courts have ignored the question altogether. See United
States v. Bucuvalas, 970 F.2d 937, 946 (1st Cir. 1992) (“We bypass
the unresolved question whether a corporation may assert an
Eighth Amendment claim.”), abrogated on other grounds by
Cleveland v. United States, 531 U.S. 12 (2000).

App. 51
preliminary constitutional question of whether Dami is
entitled to constitutional protection against excessive
fines. Doing so would be contrary to the doctrine of
constitutional avoidance. Cf. Allen, 442 U.S. at 154;
Montour, 157 P.3d at 503-04. For the following reasons,
we conclude that despite Dami’s corporate status, it
enjoys the Eighth Amendment’s protection.
¶ 58 Other divisions of this court that have examined
the constitutionality of fines imposed against corporate
entities are silent on this issue. See Associated Bus.
Prods., 126 P.3d at 325-27; Boulder Cty. Apartment
Ass’n, 97 P.3d at 337-38. The opinions do not indicate
whether the issue was raised. But since these cases
were decided, the Supreme Court has extended other
constitutional protections to corporations. This tidal
shift in constitutional law leads us to resolve the issue
for Dami.
¶ 59 In Citizens United v. Federal Election
Commission, 558 U.S. 310 (2010), the Supreme Court
extended First Amendment protection for political
speech to corporations. Id. at 342-43. The Court
“rejected the argument that political speech of
corporations or other associations should be treated
differently under the First Amendment simply because
such associations are not ‘natural persons.’” Id. at 343
(quoting First Nat’l Bank of Boston v. Bellotti, 435 U.S.
765, 776 (1978)). Declining to follow prior precedent
that had permitted limitations on corporate speech,
Citizens United held that “the Government may not
suppress political speech on the basis of the speaker’s
corporate identity. No sufficient governmental interest

App. 52
justifies limits on the political speech of nonprofit or
for-profit corporations.” Id. at 365.
¶ 60 Like the First Amendment, the Second
Amendment, and the Fourth Amendment, the wording
of the Eighth Amendment is not restricted to “natural
persons.” See Second Amendment Arms v. City of
Chicago, 135 F. Supp. 3d 743, 761 (N.D. Ill. 2015)
(corporations may assert both First and Fourth
Amendment challenges); Geneva Coll. v. Sebelius, 929
F. Supp. 2d 402, 428 (W.D. Pa. 2013) (“[A] for-profit,
secular corporation has standing to assert the religious
exercise claims of its owners in certain circumstances
. . . .”).
¶ 61 In sum, we are unable to discern a reason for
limiting the Eighth Amendment protection against
excessive fines to natural persons. After all, such fines
adversely impact both corporations and natural
persons, and the financial condition of some persons
may be stronger than that of some corporations. Nor
does the division present one. Thus, we conclude that
Dami’s status as a corporation does not deprive it of
Eighth Amendment protection.
3. Director’s Discretion
¶ 62 In his supplemental order, the Director assumed
that section 8-43-409 and Rule 3-6 require a formulaic
calculation of any fine. Notwithstanding Dami’s
claimed inability to pay such a large fine, the Director
concluded that neither the statute nor the rule
permitted consideration of an employer’s economic
situation and that fines imposed under the statute and
rule were “not discretionary.”

App. 53
¶ 63 The Panel rejected the Director’s view in part. In
its final order, the Panel observed that Rule 3-6
mandates that fines “will be assessed in accordance
with the following schedule of fines until the employer
complies with the requirements of the Workers’
Compensation Act regarding insurance or until further
order of the Director.” (Emphasis added.) Embracing
this language, the Panel held that Rule 3-6 grants the
Director authority to modify a fine which would
otherwise be “calculated solely on the basis of the
number of days involved.”
¶ 64 In its brief, the division acknowledges but does
not contest the Panel’s interpretation. Instead, the
division argues that the Director used his discretion “to
determine which factor to prioritize” and to consider
“mitigating and aggravating factors” before reimposing
Dami’s fine in the supplemental order.
¶ 65 We give “due deference to the interpretation of
the statute adopted by the Panel as the agency charged
with its enforcement.” Berg v. Indus. Claim Appeals
Office, 128 P.3d 270, 273 (Colo. App. 2005). In general,
“an administrative agency’s interpretation of its own
regulations is generally entitled to great weight and
should not be disturbed on review unless plainly
erroneous or inconsistent with such regulations.”
Jiminez v. Indus. Claim Appeals Office, 51 P.3d 1090,
1093 (Colo. App. 2002). “The Panel’s interpretation will
therefore be set aside only ‘if it is inconsistent with the
clear language of the statute or with the legislative
intent.’” Zerba v. Dillon Cos., 2012 COA 78, ¶ 37
(quoting Support, Inc. v. Indus. Claim Appeals Office,
968 P.2d 174, 175 (Colo. App. 1998)).

App. 54
¶ 66 We conclude that the Panel’s interpretation of
the regulatory language is reasonable. See id.; Support,
Inc., 968 P.2d at 175. Thus, the Director can modify a
penalty under section 8-43-409 and Rule 3-6, although
no reason for doing so is identified in the rule or was
addressed by the Panel.
¶ 67 At the same time, we disagree that Rule 3-6
adequately incorporates the three factors articulated in
Associated Business Products. On remand, the Director
concluded — and the Panel agreed — that Rule 3-6
sufficiently incorporated these factors. He explained as
follows:
• as to the first factor, Rule 3-6 reflects
reprehensibility because the fine increases for a
second violation;
• as to the second factor, because the risk to
employees increases the longer an employer is
without insurance, the rule recognizes the
potential magnitude of the harm by increasing
the amount of the fine based on how long an
employer remains uninsured; and
• as to the third factor, by providing a uniform
formula for fining all noncomplaint employers,
the rule assures uniformity in its application
while penalizing employers with longer periods
of noncoverage more heavily.
(Those factors are discussed fully in the following
subsection of this opinion.)
¶ 68 But these observations go only so far. For
example, an employer’s reasons for a second lapse of

App. 55
coverage may affect its reprehensibility. The duration
of that lapse will often be determined by how much
time passes between the lapse beginning and notice of
noncompliance from the division. And this timing
dimension — not addressed in either the statute or any
regulation that has been called to our attention —
could erode uniformity.8
¶ 69 As addressed in the following subsection, to pass
constitutional muster the factors that the Panel
ordered the Director to consider must be applied on a
case-by-case basis, with due consideration given to each
employer’s unique situation. For this reason, we reject
the Director’s and the Panel’s contrary interpretations.
See Solid Waste Agency of N. Cook Cty. v. U.S. Army
Corps of Eng’rs, 531 U.S. 159, 160 (2001) (rejecting
doctrine of agency deference “[w]here an administrative
interpretation of a statute would raise serious
constitutional problems”).9

8

Disuniformity is not the only potential problem resulting from
the absence of a statutory or regulatory limitation of fines based on
the failure to afford an employer prompt notice of noncompliance.
Lack of such a limitation also invites future disputes over
excessive fines.

9

The Panel’s interpretation also suffers from lack of consistency.
If Rule 3-6 already and adequately encompasses the Associated
Business Products factors, as the Panel ultimately held after
remand, then the Panel had no reason to remand to the Director
for him to consider those factors. See, e.g., Turney v. Civil Serv.
Comm’n, 222 P.3d 343, 352 (Colo. App. 2009) (“Although courts
extend deference to an agency’s interpretation of its own rules,
they are not bound by it, particularly where the agency’s
interpretation is not uniform or consistent.”).

App. 56
¶ 70 With these conclusions in mind, we turn to the
propriety and proportionality of the fine imposed on
Dami.
4. Applying the Associated Business Products
Factors in Weighing Whether a Fine
Is Grossly Disproportionate and Thus
Constitutionally Excessive
¶ 71 Because the constitutional line demarcating an
excessive fine is “inherently imprecise” and “not
marked by a mathematical formula,” determining
whether a fine is “grossly disproportionate” can be
difficult. Associated Bus. Prods., 126 P.3d at 326 (first
quoting Cooper Indus., 532 U.S. at 425; then quoting
Toth, 924 P.2d at 1100). But cases addressing the
constitutional limitations on punitive damages awards
— from which the three Associated Business Products
factors evolved — provide context for doing so.
¶ 72 In BMW of North America, Inc. v. Gore, 517 U.S.
559, 575, 580, 583 (1996), the Supreme Court first
articulated factors that should be considered when
weighing the “reasonableness of a punitive damages
award.” In deciding whether the constitutional line for
an excessive fine “has been crossed,” the Court later
condensed these factors by instructing lower courts to
“focus[] on the same three criteria: (1) the degree of the
defendant’s reprehensibility or culpability; (2) the
relationship between the penalty and the harm to the
victim caused by the defendant’s actions; and (3) the
sanctions imposed in other cases for comparable
misconduct.” Cooper Indus., 532 U.S. at 425.

App. 57
¶ 73 Although Gore and Cooper addressed only
punitive damages, the factors have been more broadly
applied. As pertinent here, a statutory damage award
could be “devastatingly large . . . out of all reasonable
proportion to the actual harm suffered,” which could be
a “sufficiently serious case [that] the due process clause
might be invoked.” Parker v. Time Warner Entm’t Co.,
331 F.3d 13, 22 (2d Cir. 2003); see also St. Louis, Iron
Mountain & S. Ry. Co. v. Williams, 251 U.S. 63, 66-67
(1919) (Although states have wide latitude in setting
penalties for statutory violations, states cannot impose
penalties “so severe and oppressive as to be wholly
disproportioned to the offense and obviously
unreasonable.”). Not surprisingly, Associated Business
Products, 126 P.3d at 326, adopted the Gore factors and
applied them to statutory penalties and civil fines.10
¶ 74 Dami asserts that the Director did not
adequately apply these factors in his supplemental
decision. True, the Director discussed the factors in his
order on remand, although only after having been
directed to do so by the Panel. But recall the Director
determined that because the factors were incorporated
into section 8-43-409 and Rule 3-6, no further factspecific analysis was required. In our view, this
approach sells the necessary constitutional inquiry
short.

10

Associated Business Products, 126 P.3d at 326, quoted the
recitation of the factors in Cooper Industries, 532 U.S. at 425;
Cooper Industries summarized and compiled the factors
articulated in Gore, 517 U.S. at 575, 580, 583.

App. 58
¶ 75 When the Gore/Cooper Industries analysis has
been applied by divisions of this court and by courts in
other jurisdictions, the factors were examined in the
context of the fined party’s actual behavior. No less is
required here.
¶ 76 Consider Associated Business Products, 126 P.3d
at 324, where an employer and its insurer were fined
$24,900 for delaying or failing to pay $107.79 in
medical bills incurred by an injured worker. A division
of this court upheld the fine. In applying the Gore
factors, it noted that the employer’s and its insurer’s
actions met the reprehensibility factor because they
had (1) previously been fined for failing to pay bills;
(2) showed a pattern of delaying payment of the
worker’s bills; (3) failed to adhere to orders requiring
them to pay for attendant care services, medical
supplies, and prescriptions; and (4) disobeyed an order
requiring them to identify the claims adjuster handling
the file and provide a complete copy of the claims file
and payment records. Id. at 326. The division went on
to compare the fine to the range of penalties allowed
under the statute and found it to be “well below the
maximum” daily fine. Id. at 327.
¶ 77 Next consider Blood, 252 P.3d at 1094, where the
Colorado Supreme Court applied the Gore factors to
decide whether an $18 million punitive damages award
assessed against Qwest was “excessive and
disproportionate.” A jury had awarded the punitive
damages to a lineman who suffered grave injuries
when the pole he was climbing — owned by Qwest —
collapsed and fell to the ground. The court examined
Qwest’s behavior de novo. It noted that Qwest

App. 59
(1) lacked “a periodic pole inspection program,” which
demonstrated a “conscious indifference to the safety of
linemen”; (2) had failed to implement such an
inspection program for five decades; and (3) should
have foreseen the plaintiff’s injuries caused by the
collapse of a pole due to rot as the natural result of
never inspecting its poles. Id. at 1095-97. Based on
these particular facts, the court affirmed the award.
¶ 78 Similarly, courts in other jurisdictions have
applied the Gore/Cooper Industries factors using a factspecific analysis. See, e.g., Lompe v. Sunridge Partners,
LLC, 818 F.3d 1041, 1065-73 (10th Cir. 2016) (reducing
a punitive damages award against an apartment
management company for tenant’s carbon monoxide
poisoning injuries on grounds that, under Gore factors,
the amount was excessive when compared to other
carbon monoxide poisoning cases); In re Exxon Valdez,
270 F.3d 1215, 1242 (9th Cir. 2001) (rejecting a $5
billion punitive damages award against Exxon in part
because “there was no violence, no intentional spilling
of oil (as in a ‘midnight dumping’ case), and no
executive trickery to hide or facilitate the spill”); People
ex rel. Bill Lockyer v. Fremont Life Ins. Co., 128 Cal.
Rptr. 2d 463, 475-81 (Cal. Ct. App. 2002) (upholding a
civil penalty because it did not violate the Gore factors);
In re Marriage of Miller, 860 N.E.2d 519, 523-24 (Ill.
App. Ct. 2006) (comparing the $1,172,100 penalty
imposed against an employer for failure to garnish the
wages of an employee who owed child support against
the maximum fine for the criminal offense of failing to
pay child support and concluding that the penalty was
excessive), rev’d, 879 N.E.2d 292 (Ill. 2007)

App. 60
(reconsidering the factors in light of the evidence and
reinstating the $1,172,100 penalty).
¶ 79 We consider these decisions well reasoned and
apply them here. Thus, when Dami challenged the fine
as constitutionally excessive, the Director should have
weighed the facts specific to Dami. By failing to do so,
the Director misapplied the law and abused his
discretion. See Patterson, ¶ 6; Heinicke, 197 P.3d at
222.
¶ 80 Even so, could we set aside the Panel’s final
order upholding the fine unless the Director’s failure to
make a fact-specific inquiry harmed Dami? After all, as
the Director recognized, the formula in Rule 3-6 gives
limited voice to the Gore factors.
¶ 81 The record contains Dami’s written assertions
and Ms. Pak’s affidavit.11 In his supplemental order
and order on remand, the Director accepted these
assertions as true. The division did not controvert any
of this information before the Panel, nor does it do so
on appeal. And “a legal conclusion drawn by the Panel
from undisputed facts is a matter for the appellate

11

As indicated, Ms. Pak’s affidavit explained that she relied on her
insurance agent to obtain and maintain all necessary insurance
coverages, but she asserted inability to pay the fine only in her
separate letter to the division, which served as Dami’s initial
petition to review. Of course, appellate courts may only consider
assertions that are supported by record evidence, McCall v.
Meyers, 94 P.3d 1271, 1272 (Colo. App. 2004), and mere arguments
of counsel must be disregarded. Lucero v. People, 166 Colo. 233,
237, 442 P.2d 820, 822 (1968). But exactly what must be included
in such a petition to make a sufficient record is not resolved by
statute, regulation, or case law.

App. 61
court.” Coates, Reid & Waldron v. Vigil, 856 P.2d 850,
856 (Colo. 1993). So, we apply the Gore/Cooper
Industries factors to those undisputed facts as follows.
a. Reprehensibility
¶ 82 In a punitive damages case, our supreme court
has adopted the Supreme Court’s criteria for assessing
reprehensibility:
The [United States Supreme] Court has
analyzed the Gore reprehensibility
guidepost according to the following five
criteria:
the harm caused was physical as
opposed to economic; the tortious
conduct evinced an indifference to
or a reckless disregard of the
health or safety of others; the
target of the conduct had financial
vulnerability; the conduct involved
repeated actions or was an isolated
incident; and the harm was the
result of intentional malice,
trickery, or deceit, or mere
accident.
“The existence of any one of these
[criterion] weighing in favor of a plaintiff
may not be sufficient to sustain a punitive
damages award; and the absence of all of
them renders any award suspect.”
Blood, 252 P.3d at 1094-95 (quoting State Farm Mut.
Auto. Ins. Co. v. Campbell, 538 U.S. 408, 419 (2003)).

App. 62
¶ 83 Dami said that it was unaware of the lapses of
workers’ compensation insurance. The Director found
that Dami should have known about the lapses, but
relied only on the prior violation in doing so. Instead,
the uncontroverted evidence provided in Ms. Pak’s
affidavit indicates she trusted her insurance agent to
maintain the necessary coverages. In turn, the agent
agreed that Ms. Pak was likely confused, that she did
not realize she lacked the insurance, and that he “did
not tell” her Dami lacked workers’ compensation
insurance.
¶ 84 These facts put Dami at the low end of the
reprehensibility scale. By any fair reading of Blood,
Dami did not act with “indifference to or reckless
disregard for the safety of others,” nor did it act with
intentional malice, trickery or deceit.
b. Disparity Between Actual or Potential Harm to
Employees and the Fine
¶ 85 Dami submitted its unemployment records
showing that it had fewer than ten employees and its
annual payroll was less than $50,000. Dami also said
that a workers’ compensation claim has never been
filed against it. The division could easily have
controverted the latter statement, but has not done so.
This information is significant in two ways.
¶ 86 First, because no claims have been filed against
Dami, the lack of workers’ compensation insurance did
not actually harm any of Dami’s employees.
¶ 87 Second, as for potential harm, Dami has few
employees. Cf. Blood, 252 P.3d at 1079, 1098 (noting
that Qwest’s failure to inspect any of its 157,000 poles

App. 63
for five decades endangered “linemen and the public”).
And Dami’s lengthy history with no reported claims
also suggests that the risk of injury to those few
employees is low.
¶ 88 Yes, as the Director observed, “an employer that
continues to operate without insurance for a lengthy
period of time creates an ever-growing risk that a
worker will be injured and be forced to rely solely on
the employer to pay for the injury.” Because the record
does not include any evidence of particular risks
arising from the nature of Dami’s operations, however,
this observation paints an incomplete picture. Of
course, all employees working for an employer without
workers’ compensation coverage are at financial risk
should an injury occur and the employer be unable or
unwilling to compensate the injured worker. But the
magnitude of that risk depends on the likelihood of
severe or fatal injury.
¶ 89 As to that likelihood, the Director observed only
that housekeeping and maintenance work involved
potentially heavy lifting, which could lead to injury.
But he did not refer to industry-specific data from
Colorado. Nor have we found any.
¶ 90 To fill this void, we have taken judicial notice of
federal government reports. Campbell v. Manchester
Bd. of Sch. Dirs., 641 A.2d 352, 359 n.7 (Vt. 1994) (“The
Court in Nyquist took judicial notice of enrollment data
from publicly available government reports, exactly the
type of information we have used here. See Committee
for Public Education & Religious Liberty v. Nyquist,
413 U.S. 756, 768 n. 23 (1973).”). According to the
United States Department of Labor’s most recent

App. 64
reports, the “leisure and hospitality” industry ranks
below the midpoint of other industries for incidence of
nonfatal workplace injuries and well below that point
for fatal injuries.12
c. Comparable Penalties
¶ 91 The record is barren of any evidence comparing
Dami’s fine against fines imposed on other uninsured
employers. We cannot fault Dami for this void because
it would lack access to such information. Nor has the
division provided it.
¶ 92 Instead, Dami identifies a 2005 “State Fiscal
Impact Statement” related to the amendment of section
8-43-409, which estimated that the total fines collected
from all violators of the statute in 2006-2007 would be
“$200,000.” Further, Dami points out that the General
Assembly anticipated the average fine would be
$28,500, and that its fine exceeds this estimate by
2900%.13

12

The reports are released by the Bureau of Labor Statistics and
can be found at Bureau of Labor Statistics, Nonfatal Occupational
Injuries and Illnesses Requiring Days Away from Work, 2015 (Nov.
10, 2016), https://perma.cc/G4QQ-FM7V (nonfatal injuries); and
Bureau of Labor Statistics, Census of Fatal Occupational Injuries
Summary, 2015 (Dec. 16, 2016), https://perma.cc/Q7DF-XK7U
(fatal injuries).
13

Dami’s brief refers to a January 18, 2005, “State Fiscal Impact
Statement” and attaches a “Summary of Legislation under State
Revenues.” The Summary does not state from where it derived the
figures. In any event, the division does not contest the accuracy of
this information.

App. 65
¶ 93 Even so, according to the Director, the fines
imposed on different employers must be similar
because all of them were imposed solely by applying
the formula in Rule 3-6. This assertion, even if
accurate, accounts for only one-half of the process.
Although we have rejected Dami’s vagueness
argument, we agree that the more time that lapses
before the division gives notice to an uninsured
employer, the more the fine will have mounted. Due to
this variable, significantly disparate fines could be
imposed, despite the Director’s formulaic approach.
5. Ability to Pay
¶ 94 Dami next argues that the Director should have
considered its ability to pay before imposing the
penalty. As indicated, the Director did not do so,
asserting lack of statutory or regulatory authority.
¶ 95 No Colorado case that Dami has cited, or that we
have found, requires that ability to pay be considered
before imposing a civil fine. However, Colorado courts
consider ability to pay before imposing criminal fines.
See, e.g., People v. Stafford, 93 P.3d 572, 574 (Colo.
App. 2004) (“[A] sentencing court must consider the
defendant’s financial status in determining the
appropriate amount of any fine to be levied.”); People v.
Pourat, 100 P.3d 503, 507 (Colo. App. 2004) (“[I]n
imposing a fine, a trial court must consider a
defendant’s ability to pay.”).
¶ 96 As well, the United States Supreme Court has
held that a defendant’s ability to pay must be
considered before a monetary civil contempt sanction
may be imposed. See United States v. United Mine

App. 66
Workers of Am., 330 U.S. 258, 304 (1947) (“It is a
corollary of the above principles that a court which has
returned a conviction for contempt must, in fixing the
amount of a fine to be imposed as a punishment or as
a means of securing future compliance, consider the
amount of defendant’s financial resources and the
consequent seriousness of the burden to that particular
defendant.”).
¶ 97 Other states have required that ability to pay be
considered before imposing a civil penalty. See Parisi v.
Broward Cty., 769 So. 2d 359, 366 (Fla. 2000) (“[I]n
imposing both criminal fines or coercive civil contempt
fines, the court must consider the financial resources of
the contemnor in setting the amount of the fine.”).
¶ 98 In a case remarkably similar to this one, the
Minnesota Court of Appeals listed ability to pay as one
of the factors to be considered before a fine could be
imposed against an employer for failing to carry
workers’ compensation insurance. See State Dep’t of
Labor & Indus. v. Wintz Parcel Drivers, Inc., 555
N.W.2d 908, 913 (Minn. Ct. App. 1996) (citing State v.
Alpine Air Prods., Inc., 490 N.W.2d 888, 896-97 (Minn.
Ct. App. 1992)), modified, 558 N.W.2d 480 (Minn.
1997). Wintz Parcel Drivers upheld a penalty against a
trucking firm in excess of $1.2 million for failure to
carry workers’ compensation insurance. Although the
opinion does not say how many employees Wintz had or
describe its financial status, the court mentions that
Wintz’s workers’ compensation insurance premium for

App. 67
the uncovered period would likely have been over $1
million. Id.14
¶ 99 Guided by these authorities, we conclude that
ability to pay should be considered when determining
whether a penalty imposed against an employer for
failure to carry workers’ compensation insurance is
constitutionally excessive.
¶ 100 Ms. Pak’s letter asserted that Dami cannot
afford to pay a fine of $841,200, which would put it —
and her — into bankruptcy. The record does not
include any contrary information. Nor does the division
argue otherwise.
¶ 101 Thus, although the Director did not exercise his
statutory power to seek a cease and desist order
putting Dami out of business, which Dami could have
opposed, the fine indirectly achieved this result. Still,
the record does not fully describe Dami’s financial
condition, such as its net worth. For this reason, we are
unable to say whether Dami could pay a reduced fine.
¶ 102 Based on all of these facts, we conclude that the
present record shows the $841,200 fine to be excessive.
In saying this much, however, we take care to
emphasize what we are not saying — that a lower fine
against Dami would necessarily also fail a
constitutional challenge. To the contrary, the
constitutionality of such a fine can be addressed only
when that fine has been imposed and any additional
record is before us.
14

The record does not contain any comparable information for
Dami.

App. 68
IV. Incorporating Provisions of Section 8-43-304
into Section 8-43-409
¶ 103 Dami next contests the fine by contending that
provisions of section 8-43-304, C.R.S. 2016, must be
read into section 8-43-409. In particular, Dami focuses
on provisions in section 8-43-304 that (1) grant a
violator twenty days to cure a violation and thus avoid
a penalty, § 8-43-304(4); (2) require a party charging an
opponent with a violation to prove by clear and
convincing evidence that the violation occurred, § 8-43304(4); and (3) mandate that a party alleging a
violation file a claim within one year of when it knew
or reasonably should have known of the alleged
violation, § 8-43-304(5).
¶ 104 Based on these provisions, Dami argues that the
fine must be set aside because (1) it cured its failure to
carry workers’ compensation insurance within twenty
days; (2) the division did not prove Dami’s violation by
clear and convincing evidence; and (3) the division did
not file its notice of violation within one year of when
Dami’s violation should reasonably have been
discovered. But Dami’s conclusion fails because its
premise that the provisions of section 8-43-304 must be
read into section 8-43-409 is flawed.
¶ 105 As with any statute, the provisions of the Act
must be read “harmoniously, reconciling conflicts
where necessary.” Anderson v. Longmont Toyota, Inc.,
102 P.3d 323, 327 (Colo. 2004). But that general
principle does not give a reviewing court license to read
provisions from one statute into a different statute. To
the contrary, courts are expressly prohibited from
reading provisions into the Act. See Kraus v. Artcraft

App. 69
Sign Co., 710 P.2d 480, 482 (Colo. 1985) (“We have
uniformly held that a court should not read nonexistent
provisions into the Colorado Workmen’s Compensation
Act.”).
¶ 106 Relying on Holliday v. Bestop, Inc., 23 P.3d 700,
705 (Colo. 2001), Dami argues that nothing in section
8-43-304 prohibits its provisions from being read into
section 8-43-409. Then Dami insists that because the
limiting phrase in section 8-43-304 — “for which no
penalty has been specifically provided” — only applies
to one of the four different acts giving rise to penalties
under that statute, the other three types of actions
leading to penalties may be read broadly and into
section 8-43-409.
¶ 107 Holliday held as follows:
The legislature’s use of the disjunctive
conjunction “or” in section 8-43-304(1)
plainly demarcates four different acts
giving rise to penalties. The legislature’s
use of “or” makes clear that the statute
penalizes the person who: (1) “violates
any provision of [the Workers’
Compensation Act],” (2) “does any act
prohibited thereby,” (3) “fails or refuses to
perform any duty lawfully enjoined
within the time prescribed by the director
or panel, for which no penalty has been
specifically provided,” or (4) “fails,
neglects, or refuses to obey any lawful
order made by the director or panel or any

App. 70
judgment or decree made by any court as
provided by said articles.”
23 P.3d at 705 (citation omitted) (quoting § 8-43304(1)).
¶ 108 Thus, Holliday does not carry the weight that
Dami places on its shoulders. Had the General
Assembly intended to incorporate a cure provision, a
limitation period, or a clear and convincing burden of
proof into section 8-43-409, it would have done so
expressly. Because it did not, we are not free to do so by
judicial fiat. See City of Loveland Police Dep’t v. Indus.
Claim Appeals Office, 141 P.3d 943, 954-55 (Colo. App.
2006) (“If [the General Assembly] intended to limit
death benefits where the death results from mental
impairment, we conclude it would have done so
expressly.”).
¶ 109 For these reasons, we decline to incorporate the
provisions of section 8-43-304 into section 8-43-409.
Therefore, the Director was not obligated to credit
Dami for curing the violation, was not required to prove
by clear and convincing evidence that Dami violated
section 8-43-409, and did not have to file notice of
Dami’s violation within one year of Dami’s lapse.
V. Conclusion
¶ 110 The fine must be set aside because the Director
abused his discretion when he failed to apply the
Associated Business Products factors — derived from
Gore and Cooper Industries — to Dami’s specific
circumstances. Facts relevant to that application
include Dami’s ignorance that the required insurance
had lapsed. While not mandated by Gore, the failure to

App. 71
notify Dami of the lapse for almost half a decade and
Dami’s ability to pay are also relevant. On remand, the
fine may be recalculated, but only after these facts
have been weighed.
¶ 111 We conclude that Dami’s other contentions —
challenging the facial constitutionality of section 8-43409, seeking to incorporate the provisions of section 843-304 into section 8-43-409, and alleging procedural
due process violations — do not provide a basis for
setting aside the Panel’s final order affirming the
Director’s remand order.
¶ 112 The Panel’s order is set aside and the case is
remanded to the Panel with directions to return it to
the Director for recalculation of Dami’s fine in
accordance with this opinion.
JUDGE DUNN and JUDGE DAVIDSON concur.

App. 72

APPENDIX C
INDUSTRIAL CLAIM APPEALS OFFICE
FEIN 84-1545878
[Filed January 20, 2016]
______________________________________
IN THE MATTER OF THE CLAIM OF )
)
DIVISION OF WORKERS’
)
COMPENSATION,
)
)
Petitioner,
)
)
v.
)
)
DAMI HOSPITALITY, LLC,
)
)
Respondent Employer,
)
______________________________________ )
CORRECTED FINAL ORDER
Pursuant to §8-43-302(1)(b), C.R.S., the following
Corrected Final Order is issued to correct an error
made in the original Order that the Panel issued on
January 11, 2016, which was incorrectly noted to have
been sent in 2015. The ICAO order dated January 11,
2015, is hereby amended pursuant to §8-43-302(a),
C.R.S. to reflect the correct year as that of 2016. We
otherwise reenter the order without change to its
original text as set forth below.

App. 73
In our original Order, we stated that the
respondents did not file a brief in support of their
petition to review in this matter. This is incorrect. The
respondents did, in fact, timely file their brief in
support.
The respondent seeks review of an order of the
Director of the Division of Workers’ Compensation
(Director) dated August 27, 2015, that assessed and
ordered the respondent to pay a fine totaling $841,200
for failing to meet its statutory obligation to maintain
workers’ compensation insurance. We affirm.
This matter is before us for the second time. In
order to understand the respondent’s arguments on
appeal and our analysis, it is necessary to recite the
procedural history of this case.
On February 19, 2014, the Director issued a Notice
to Show Compliance – Subsequent Violation directing
the respondent to provide evidence of workers’
compensation insurance or, alternatively, to provide a
written explanation of an exemption for the period from
July 1, 2005, to the present. The Notice also directed
the respondent to complete and return a compliance
questionnaire. The record does not disclose that the
respondent submitted a response to the Director’s
Notice.
Thereafter, on June 25, 2014, the Director issued
another Notice to Show Compliance – Subsequent
Violation directing the respondent to provide evidence
of workers’ compensation insurance or, alternatively, to
provide a written explanation of an exemption for the
period from July 1, 2005, to the present. The Notice

App. 74
also directed the respondent to complete and return a
compliance questionnaire. The respondent was given
20 days to respond to the Director’s Notice. The
Director notified the respondent that if it was in
default of its insurance obligations, fines would be
assessed from a minimum of $250 per day up to $500
per day for its second or subsequent violation. The
respondent also was advised of and afforded the
opportunity to request a prehearing conference
regarding the issue of default. The record does not
disclose that the respondent requested a prehearing
conference.
On October 30, 2014, the Director issued his order,
finding that the respondent had employed one or more
persons on or after July 1, 2005, and that the
respondent failed to provide satisfactory proof of
workers’ compensation insurance coverage and failed
to satisfactorily demonstrate why it was exempt from
the insurance requirements for the periods of August
10, 2006, through June 8, 2007, and September 12,
2010, through July 9, 2014. Finding the respondent in
default of its insurance obligations, the Director
imposed a fine totaling $841,200.00 pursuant to §8-43409, C.R.S. and Workers’ Compensation Rule of
Procedure 3-6. Fines were assessed in various amounts
from August 10, 2006, through June 8, 2007, and from
September 12, 2010, through July 9, 2014. Moreover, in
an order dated May 24, 2006, the Director previously
had found the respondent in default of its insurance
obligations. The Director found that the respondent’s
previous period of default ended on June 9, 2006, when
the respondent obtained a workers’ compensation
insurance policy.

App. 75
The respondent appealed the Director’s order,
arguing, in part, that it was unaware its workers’
compensation insurance coverage had lapsed because
it had relied on its insurance broker to follow its
instructions to obtain the required insurance coverage.
In support of this argument, the respondent relied
upon a letter of its insurance agent, which stated as
follows:
I think I feel part of responsibility for this
matter that I did not tell about Worker’s
Compensation and I will be managing my client
in the future. Actually, she confused Property
Insurance and Worker’s Compensation.
The respondent also argued that the Division of
Workers’ Compensation (Division) had failed to notify
the respondent in a timely manner that its insurance
coverage had been cancelled. The respondent further
contended that the Director imposed an “absurd fine,”
essentially arguing that the Director had not exercised
any discretion regarding the amount of the fine, and
that the fine is unconstitutional.
The Director subsequently issued his supplemental
order on April 21, 2015. The Director assumed the
allegations contained in the respondent’s appeal were
true. After weighing the evidence presented by the
respondent, the Director determined that it was the
responsibility of the insurance carrier, not the Division,
to notify the respondent that its policy had lapsed, and
in any event, it is the respondent’s responsibility to
maintain its insurance coverage. Section 8-44-110,
C.R.S. The Director also noted that pursuant to the
National Council on Compensation Insurance, Inc., the

App. 76
respondent’s 2006 workers’ compensation insurance
policy was cancelled for nonpayment of premium, and
its 2010 policy was cancelled for “failure to comply with
the terms & conditions or audit failure.” Thus, the
Director concluded that both of these circumstances
were within the respondent’s control. The Director
further determined that the letter from the insurance
agent failed to indicate that the respondent was
unaware of the absence of a policy of workers’
compensation insurance, and it did not indicate the
agent failed to secure the insurance despite the request
of the respondent. Also, the Director found that there
is no indication in the letter that the respondent
continued to pay for workers’ compensation insurance
even though no policy was in place. The Director
further held that even if the respondent’s reliance on
the agent was reasonable, it still was not relieved of its
obligation to maintain workers’ compensation
insurance under the Workers’ Compensation Act (Act).
The Director also decided he had no basis for
addressing the constitutionality of §8-43-409, C.R.S.
The Director, therefore, concluded that the respondent
was in default of its insurance obligation during the
periods of August 10, 2006, through June 8, 2007, and
September 12, 2010, through July 9, 2014, and ordered
the respondent to pay a fine totaling $841,200.00.
Section 8-43-409, C.R.S.; WCRP 3-6.
The respondent again appealed the Director’s order,
arguing, in part, that under §8-43-304(4), C.R.S. the
Director failed to prove by clear and convincing
evidence the respondent knew or reasonably should
have known it was in violation of the Act, that its
reliance on the advice of its insurance agent

App. 77
demonstrated it did not have reasonable knowledge of
the lack of insurance, and that the penalty assessed by
the Director was “absurd,” and the amount of the fine
assessed was unconstitutional.
On July 30, 2015, we issued our order of remand.
Initially, we rejected the respondent’s argument that
the clear and convincing standard set forth in §8-43304(4), C.R.S. was applicable. We held that the clear
and convincing standard set forth in §8-43-304(4),
C.R.S. does not set forth the burden of proof governing
a case involving an employer’s default of its mandatory
workers’ compensation insurance obligations under §843-409, C.R.S. However, based on the respondent’s
allegation that the fine, as applied, was excessive and
unconstitutional, we remanded the matter for the
Director to consider the three factors set forth in
Associated Business Products v. Industrial Claim
Appeals Office, 126 P.3d 323, 326 (Colo. App. 2005)
when determining the constitutionally permissible fine
to be imposed against the respondent for defaulting on
its statutory obligation to maintain workers’
compensation insurance. These three factors are as
follows: (1) the degree of reprehensibility of the
defendant’s misconduct; (2) the disparity between the
harm or potential harm suffered and the fine to be
assessed; and (3) the difference between the fine
imposed and the penalties authorized or imposed in
comparable cases.
On August 27, 2015, the Director issued his order
on remand. In his order, the Director stated that the
factors in Associated Business Products were
incorporated in Rule 3-6. The Director held that the

App. 78
first prong of the Associated Business Products test, or
the degree of reprehensibility of the defendant’s
misconduct, is contained in Rule 3-6 because it reflects
the degree of reprehensibility of a second lapse of
workers’ compensation insurance coverage since the
fine is substantially greater than that of an initial
default. The Director held that Rule 3-6(D) also
incorporates the second prong of the Associated
Business Products test, or the disparity between the
harm or potential harm suffered and the fine to be
assessed, because it recognizes that the longer the
employer is without insurance, the greater the risk
that a non-insured injury will occur. According to the
Director, because Colorado has no state monetary fund
to pay for injuries sustained by workers whose
employers lack insurance, the employee must rely
solely on the limited financial resources of the
uninsured employer. The Director thus held that for
this reason, an employer that obtains insurance quickly
in the event of a lapse of coverage minimizes the
chance of having a non-insured injury, and the
employer will receive a relatively low fine per day
under the schedule of fines set forth in Rule 3-6(D). As
to the third prong of the test under Associated Business
Products, or the difference between the fine imposed
and the penalties authorized or imposed in comparable
cases, the Director held that Rule 3-6(D) creates a
system by which any employer that has committed a
subsequent violation is subject to the same table of
fines. The Director recognized that while the total
amount of the fine can differ between employers, such
difference is dependent on the length of time the
employer fails to carry insurance. Importantly, in his
order, the Director also incorporated the findings of

App. 79
fact made in his prior supplemental order dated April
21, 2015.
The respondent again has appealed. On appeal, the
respondent raises many of the arguments that it
previously made, and that we already addressed and
rejected in our prior order on July 30, 2015. These
arguments include the following: (1) pursuant to §8-43304(4), C.R.S., the Director must prove by clear and
convincing evidence that the respondent violated §8-43409, C.R.S.; (2) the respondent did not have reasonable
knowledge of its default; and (3) its offer of $3,750 is an
adequate penalty assessment. Accordingly, we will not
address these issues again in this order. The
respondent also argues on appeal, however, that the
fine imposed by the Director is a clear violation of the
United States Constitution and the Colorado State
Constitution, the fine imposed by the Director is not
constitutionally sound because it is excessive, the
General Assembly never intended to impose a fine in
violation of the Eighth Amendment to the United
States Constitution and Article II, Section 20 of the
Colorado Constitution, and the Director has failed to
consider the factors set forth in Associated Business
Products when reaffirming the imposition of the
$841,200 fine. With regard to its argument about the
factors enunciated in Associated Business Products, the
respondent contends that by assessing a fine under
Rule 3-6(D) as written, the Director has failed to
consider the facts of this case, the character of the
respondent, and any harm that the default has caused.
Rather, the respondent argues that Rule 3-6(D) only
considers the amount of time of the default. The
respondent further contends that the Director’s

App. 80
approach with regard to Rule 3-6(D) allows totally
unjust and unconstitutional outcomes.
The Attorney General has not filed a Petition to
Review, but instead has filed a Brief In Opposition on
behalf of the Director. In the Brief In Opposition, the
Attorney General argues that the Panel has erred in
requiring the Director to apply the factors set forth in
Associated Business Products when determining a
constitutionally permissible fine. The Attorney General
contends that the constitutional analysis set forth in
Associated Business Products is inapplicable to §8-43409, C.R.S. and to this case because that case instead
addressed the discretionary application of penalties
under §8-43-304, C.R.S., which applies to a violation for
which no penalty has been specifically provided
elsewhere in the Act. The Attorney General goes on to
argue that since this case instead involves §8-43-409,
C.R.S., and that statute mandates that the Director
impose a fine on the respondent for its subsequent
violation of failing to meet its statutory obligation to
maintain workers’ compensation insurance, the
Director has no discretion to determine the amount of
the fine to be imposed. Brief In Opposition at 13. The
Attorney General concedes, however, that the fine the
Director is required to impose against the respondent
must range between a minimum of $250 per day and a
maximum of up to $500 per day. The Attorney General
then contends that requiring the Director to apply the
Associated Business Products factors would require
compliance with nonexistent statutory provisions.
We disagree with the Attorney General’s argument
that the constitutional analysis set forth in Associated

App. 81
Business Products is inapplicable to §8-43-409, C.R.S.
or to the facts here. In Austin v. U.S., 509 U.S. 602, 113
S. Ct. 2801, 125 L. Ed. 2d 488 (1993), the United States
Supreme Court ruled that the excessive fines clause is
not limited in application to criminal cases. Rather, it
applies in civil cases where the government seeks, at
least in part, to punish a party. See Pueblo Sch. Dist.
No. 70 v. Toth, 924 P.2d 1094, 1099-1100 (Colo. App.
1996). Thus, the Colorado appellate courts have held
that a discretionary fine, such as the one applied here
by the Director under §8-43-409(4), C.R.S., must pass
constitutional muster. See Crowell v. Industrial Claim
Appeals Office, 298 P.3d 1014, 1017-1018 (Colo. App.
2012) (while the ALJ is required to impose a penalty
under §8-43-305, C.R.S., the ALJ has discretion to
determine the amount of the penalty, provided that the
amount does not exceed the legislatively enacted
penalty range); cf. Pueblo Sch. Dist. No. 70 v. Toth, 924
P.2d at 1100 (where it was mandatory to impose a
penalty at a “daily rate” for insurer’s continuing
violation up to amount of $100 per day, the Director’s
fine of $10 per day did not violate excessive fine clause
of Eighth Amendment).
In numerous contexts, Colorado appellate courts
have identified factors a court should consider when
exercising its discretionary authority. See Cornelius v.
River Ridge Ranch Landowners Ass’n, 202 P.3d 564,
570 (Colo. 2009); Ingold v. AIMCO/Bluffs, L.L.C.
Apartments, 159 P.3d 116, 125-26 (Colo. 2007); Thomas
v. Rahmani-Azar, 217 P.3d 945, 948 (Colo. App. 2009);
Dubray v. Intertribal Bison Cooperative, 192 P.3d 604,
608 (Colo. App. 2008)(reasonable amount of attorney
fees); RMB Services, Inc. v. Truhlar, 151 P.3d 673, 676

App. 82
(Colo. App. 2006); Kennedy v. King Soopers Inc., 148
P.3d 385, 389 (Colo. App. 2006)(concerning an award of
certain costs); Clark v. Farmers Ins. Exchange, 117
P.3d 26, 29-30 (Colo. App. 2004). As we stated in our
prior order, while the opinion in Associated Business
Products addressed a fine under §8-43-304, C.R.S., we
nevertheless view the factors enunciated in that case as
most applicable to the facts and circumstances
presented here.
In Associated Business Products, the Colorado Court
of Appeals discussed the considerations necessary to
the exercise of the ALJ’s discretion to prevent any fine
so imposed from violating the excessive fines
prohibition. The Court relied on the decision in Cooper
Industries, Inc. v. Leatherman Tool Group, Inc., 532
U.S. 424, 121 S.Ct. 1678, 149 L.Ed.2d 674 (2001). That
case required three criteria to be considered when
fashioning a constitutionally appropriate level for a
fine. These include the following: (1) the degree of
reprehensibility of the defendant’s misconduct; (2) the
disparity between the harm or potential harm suffered
and the fine to be assessed; and (3) the difference
between the fine imposed and the penalties authorized
or imposed in comparable cases. Associated Business
Products v. Industrial Claim Appeals Office, 126 P.3d
at 326. Because the General Assembly has charged the
Director with exercising similar authority and
discretion in regard to fines pertinent to §8-43-409,
C.R.S., these factors must also be applied by the
Director when assessing a fine here. See In the Matter
of El Nuevo Time Out Corp., FEIN No. 01-0801734
(March 20, 2008)(recognizing consideration of three
criteria announced in Associated Business Products v.

App. 83
Industrial Claim Appeals Office, supra when
determining constitutionally appropriate level of a
fine). Consequently, the Attorney General’s argument
notwithstanding, the excessive fines prohibition of the
Eighth Amendment and of Article II, section 20, of the
federal and state constitutions require the factors in
Associated Business Products to be applied to
determine whether the fine imposed by the Director is
excessive. We also note that our July 30, 2015, order
was not the first time we have remanded a penalty
assessment of the Director for the reason that the
assessment did not include reference to the criteria
designed to avoid a constitutionally excessive fine. See,
Division of Worker’s Compensation v. Silva Floor
Solutions, W.C. No. 2002-50381 (January 8, 2004) and
Division of Workers’ Compensation v. Sundance
Equestrian Center, W.C. No. 2002-110238 (January 13,
2004). Accordingly, in our first order we were required
to remand this matter for the Director to apply the
factors in Associated Business Products. On remand,
the Director determined that Rule 3-6 does, in fact,
incorporate the applicable factors enunciated in
Associated Business Products.
The Rules of Procedure adopted by the Director of
the Division of Workers’ Compensation pursuant to his
authority under §8-47-107, C.R.S., may not expand,
enlarge, or modify the underlying statute the rule is
intended to enforce, and any rule which is contrary to
or inconsistent with the statute it is enacted to enforce
is void. Monfort Transportation v. Industrial Claim
Appeals Office, 942 P.2d 1358 (Colo. App. 1997).
Because Rules are invalid if inconsistent with the
underlying statute the Rule is designed to enforce, we

App. 84
must, where possible, construe the Rule consistent with
the enabling statute. Id.; Popke v. Industrial Claim
Appeals Office, 944 P.2d 677 (Colo. App. 1997).
The Director’s Rule 3-6(D) provides in pertinent
part as follows:
For the Director’s finding of an employer’s
second and all subsequent defaults in its
insurance obligations, daily fines from $250/day
up to $500/day for each day of default will be
assessed in accordance with the following
schedule of fines until the employer complies
with the requirements of the Workers’
Compensation Act regarding insurance or until
further order of the Director. . . . (emphasis
added)
Here, based on the plain language of Rule 3-6(D),
the Director’s order on remand, and the Director’s
findings of fact from his supplemental order dated
April 21, 2015, we conclude that the Director has, in
fact, considered the facts of this case and exercised his
discretion when imposing the fine on the respondent.
As noted above, in his order on remand, the Director
stated that the factors in Associated Business Products
already have been incorporated in Rule 3-6. He held
that Rule 3-6 requires a greater fine for the second
violation, which reflects the degree of reprehensibility
of the defendant’s misconduct. The disparity between
the harm or potential harm suffered and the fine to be
assessed is shown in Rule 3-6(D) because the fine
increases the longer the employer is without insurance,
which corresponds with the greater the risk that a noninsured injury will occur. The difference between the

App. 85
fine imposed and the penalties authorized or imposed
in comparable cases is shown in Rule 3-6(D) because
the fine increases depending on the length of time each
employer fails to carry insurance. Further, pursuant to
Rule 3-6(D) and the Director’s supplemental order
dated April 21, 2015, which is incorporated in his order
on remand, it is clear that the Director considered and
weighed the evidence submitted by the respondent in
its appeal. The Director accepted, as true1, the
allegations presented by the respondent, he weighed
this evidence, considered the mitigating and
aggravating factors which reflected the degree of
reprehensibility, the potential harm suffered, and the
differences between the fines imposed in comparable
cases. The Director then issued his supplemental order
or “further order” which determined that the evidence
presented by the respondent in its appeal did not
provide him with sufficient grounds to modify the
amount of the fine imposed.
For example, the Director assumed, as true, the
respondent’s contention that it had relied on its

1

We note that §8-43-409(1), C.R.S. was amended in 2005 to allow
the Director, in his discretion, to hold an evidentiary hearing.
However, that change applied only to the determination of the
employer’s default. It does not apply to the issue of the amount of
a penalty. As we pointed out in Division of Workers’ Compensation
v. Silva Floor Solutions, supra, §8-43-207(1), C.R.S. provides that
hearings are required to determine “any controversy concerning
any issue arising” under the Act. This would preclude the Director
from proceeding to determine the amount of the penalty in a
summary judgment fashion in the face of disputed issues of fact.
However, where, as here, the Director accepts the respondent’s
factual assertions as accurate, a hearing may not be required.

App. 86
insurance broker to follow its instructions to obtain the
required insurance coverage. Nevertheless, the
Director determined that such evidence did not
demonstrate that the respondent was unaware of the
absence of a policy of workers’ compensation insurance,
and did not demonstrate the respondent continued to
pay for workers’ compensation insurance despite no
policy being in place. Also, the Director’s supplemental
order determined that the respondent employed more
than one person for its motel. The greater the number
of employees increases the potential harm that could be
suffered at the respondent’s motel. It also is implicit
that many of the jobs at the respondent’s motel are not
sedentary but, rather, involve heavier lifting, such as
housekeeping and maintenance, which increases the
potential of industrial injuries. These are aggravating
factors that were considered by the Director when
determining the appropriate amount of the fine to be
imposed against the respondent. Consequently, the
respondent’s argument notwithstanding, we are
convinced that the Director exercised his discretion
under §8-43-409, C.R.S. and Rule 3-6(D) to determine
a constitutionally permissible fine to be imposed.
Moreover, the respondent argues, on appeal, that
Rule 3-6(D) is unconstitutional because it only
considers the amount of time of the default. According
to the respondent, such an approach by the Director
with regard to Rule 3-6(D) allows totally unjust and
unconstitutional outcomes. Section 8-43-409, C.R.S.
was amended in several respects in 2005 by House Bill
05-1139. Those amendments added a minimum $250
per day fine for a repeat violation of an employer’s duty
to maintain workers’ compensation insurance. It also

App. 87
added to §8-43-304(1.5), C.R.S. That subsection
instructed the Director to promulgate rules setting
forth the circumstances pursuant to which the Director
may impose a fine and “criteria for determining the
amount of the fine.” The Director thereupon drafted
and implemented Rule 3-6. As noted above, we
interpret this rule as one setting forth criteria. The
Rule discusses primarily the effect the number of days
in which an employer goes without insurance has on
the amount of the penalty. However, the Rule also
provides that a fine calculated solely on the basis of the
number of days involved is made subject to
modification through “further order of the Director.”
The Director then, may consider other mitigating and
aggravating factors in the record in addition to the
number of days specified in the Rule when assessing
the final penalty. As discussed above, we note the
Director has considered several other specific details of
the respondent’s case. After reviewing the impact of
those factors, the Director determined the penalty
calculated through reference to the number of days
listed in Rule 3-6 remained an appropriate assessment.
Consequently, we conclude that the respondent is
mistaken in characterizing Rule 3-6 to be dependent
solely on the amount of time represented by the default
in coverage.
Otherwise, the respondent’s remaining arguments
raise a facial constitutional challenge to Rule 3.6 and to
whether the Rule sufficiently addresses the
constitutional requirements. We lack jurisdiction,
however, to address a facial constitutional challenge to
a statute or to a Rule of the Director. See Kinterknecht
v. Industrial Comm’n, 175 Colo. 60, 485 P.2d 721

App. 88
(1971); Zarlingo v. Safeway, W.C. No. 4-427-756 (Nov.
16, 2000) (insofar as Dr. Janssen argues the Rule is
unconstitutional, we lack jurisdiction to consider the
issue). The respondent’s arguments are matters left for
the judicial branch of government.
IT IS THEREFORE ORDERED that the
Director’s order dated August 27, 2015, is affirmed.
INDUSTRIAL CLAIM APPEALS PANEL
/s/David G. Kroll
David G. Kroll
/s/Kris Sanko
Kris Sanko

App. 89
NOTICE
• This order is FINAL unless you appeal it to the
COLORADO COURT OF APPEALS. To do so,
you must file a notice of appeal in that court, either
by mail or in person, but it must be RECEIVED
BY the court at the address shown below within
twenty-one (21) calendar days of the mailing date of
this order, as shown below.
• A complete copy of this final order, including the
mailing date shown, must be attached to the notice
of appeal, and you must provide a copy of both the
notice of appeal and the complete final order to the
Colorado Court of Appeals.
• You must also provide copies of the complete notice
of appeal package to the Industrial Claim Appeals
Office, the Attorney General’s Office (addresses
shown below), and all other parties or their
representative whose addresses are shown on the
Certificate of Mailing on the next page.
• In addition, the notice of appeal must include a
certificate of service, which is a statement certifying
when and how you provided these copies, showing
the names and addresses of these parties and the
date you mailed or otherwise delivered these copies
to them.
• An appeal to the Colorado Court of Appeals is based
on the existing record before the Administrative
Law Judge and the Industrial Claim Appeals Office,
and the court will not consider documents and new
factual statements that were not previously

App. 90
presented or new arguments that were not
previously raised.
• Forms are available for you to use in filing a notice
of appeal and the certificate of service. You may
obtain these forms from the Colorado Court of
Appeals
online
at
its
website,
www.colorado.gov/cdle/CTAPPFORM or in person,
or from the Industrial Claim Appeals Office. Please
note address changes as listed below.
• The court encourages use of these forms. Proper use
of the forms will satisfy the procedural
requirements of the Colorado Appellate Rules for
appeals to the Colorado Court of Appeals. For
more information regarding an appeal, you
may contact the Court of Appeals directly at
720-625-5150.
Colorado Court of Appeals
2 East 14th Avenue
Denver, CO 80203
Office of the Attorney General
State Services Section
Ralph L. Carr Colorado Judicial Center
1300 Broadway 6th Floor
Denver, CO 80203
Industrial Claim Appeals Office
633 17th Street, Suite 600
Denver, CO 80202
***
[Certificate of Mailing Omitted in the
Printing of this Appendix]

App. 91

APPENDIX D
STATE OF COLORADO
BEFORE THE DEPARTMENT OF
LABOR AND EMPLOYMENT
DIVISION OF WORKERS’ COMPENSATION
FEIN: 84-1545878
[Filed August 27, 2015]
__________________________
In the matter of:
)
Dami Hospitality, LLC
)
Respondent
)
__________________________ )
ORDER
THIS MATTER comes before the Director of the
Division of Workers’ Compensation (“Director”) under
an Order of Remand from the Industrial Claim Appeals
Panel (“the Panel”) dated July 30, 2015, in which the
Panel remanded this matter to the Director for a
consideration of the three factors set forth in Associated
Business Products v. Industrial Claim Appeals Office,
126 P.3d 323 (Colo. App. 2005) in regard to the
determination of Respondent’s fine for failing to
maintain workers’ compensation insurance coverage for
its employees.
1. It is undisputed that Respondent was previously
determined to be in violation of the requirements of the
Colorado Workers’ Compensation Act (the “Act”) and
was previously fined for such violation in accordance

App. 92
with the provisions of the Act. Section 8-43-409 C.R.S.
was amended effective July 1, 2005, and currently
provides that the Director shall impose fines of not less
than $250.00 or more than $500.00 per day for a second
and any subsequent violation. The Workers’
Compensation Rules of Procedure, 7 Code Colo. Reg.
1101-3, were also revised following the 2005
amendment of §8-43-409, and Rule 3-6(D) provides an
escalating scale of fines to be assessed for each day of
default depending upon the length of time the employer
remains in default. Neither the Act nor the Workers’
Compensation Rules of Procedure, including the
schedule of fines, contain an exclusion or exemption
from incurring and paying a fine based upon a
Respondent’s financial inability to pay.
2. In its Order of Remand, the Panel indicated that it
was inappropriate for the Director to use only the
schedule of escalating fines contained in Rule 3-6(D) to
determine the fine amount for Respondent because, the
Panel indicated, the schedule was based solely on the
length of time the employer was out of compliance. The
Panel then indicated that the appropriate analysis was
the test contained in Associated Business Products
which consists of three parts: 1.) the degree of
reprehensibility of the defendant’s misconduct; 2.) the
disparity between the harm or potential harm suffered
and the fine to be assessed; and 3.) the difference
between the fine imposed and the penalties authorized
or imposed in comparable cases. The Director notes
that Associated Business Products involved a penalty
for untimely payment of workers’ compensation
benefits issued under the general penalty statute, § 843-304, C.R.S., rather than a fine for failing to

App. 93
maintain workers’ compensation insurance issued
according to the provisions of § 8-43-409, C.R.S., which
is the statute at issue here. Nevertheless, the Director
finds that all of the Associated Business Products
factors are already incorporated into Rule 3-6(D).
3. Section 8-43-409, C.R.S., provides for two levels of
fines to be imposed on employers that fail to maintain
the mandatory workers’ compensation insurance
coverage for their employees. In § 8-43-409(1)(b)(I), the
legislature authorized fines of up to $250.00 per day for
initial defaults. However, the fines increase drastically
for second and subsequent defaults, with § 8-43409(1)(b)(II) providing for fines of $250.00 to $500.00
per day, which indicates a clear intent by the
legislature to delineate the serious nature of an
employer’s repeated failure to maintain workers’
compensation protection for its employees. Rule 3-6(B),
which provides a schedule of fines for initial violations,
as well as Rule 3-6(D), which provides the schedule of
fines for subsequent violations, were created within the
scope of the statutory limitations and with the
legislature’s intent in mind.
4. In regard to the first prong of the Associated
Business Products test, the degree of reprehensibility
of the defendant’s misconduct, Rule 3-6(D) mirrors the
statutory intent regarding subsequent violations in
that an employer that has previously been determined
to be in default is on notice that workers’ compensation
insurance is both mandatory and vitally important to
the protection of its employees as well as its own
financial security in the event of a workplace injury.
This is different from an initial violation, where the

App. 94
employer may have misunderstood or been unaware of
its insurance obligations, and to that end Rule 3-6(C)
grants the Director the discretion to reduce the fine for
an initial violation to $5/day until the date the Notice
to Show Compliance is issued. However, the lack of
such discretion in Rule 3-6(D) emphasizes that after an
initial violation an employer is aware both that the
insurance is required and of the importance of
maintaining that insurance. By allowing the insurance
to lapse after the initial default, the employer shows a
pattern of putting its workers at risk of being injured
without the financial protection afforded by workers’
compensation insurance, as well as a pattern of
ignoring the legal requirement of maintaining the
required coverage. Thus, Rule 3-6(D) reflects that the
degree of reprehensibility of a second lapse of workers’
compensation insurance coverage is substantially
greater than that of an initial default.
5. Rule 3-6(D) also incorporates the second prong of
the Associated Business Products test, the disparity
between the harm or potential harm suffered and the
fine to be assessed. By providing an escalating scale of
fines based on the length of time the employer remains
uninsured, Rule 3-6(D) recognizes that the longer the
employer is without insurance, the greater the risk
that a non-insured injury will occur. Since Colorado
has no state monetary fund to pay for injuries
sustained by workers whose employers do not have
insurance, an employee working for a non-insured
employer must rely solely on the limited financial
resources of the employer for the payment of all costs
associated with the injury, including lost wages. For
this reason, an employer that obtains insurance quickly

App. 95
in the event of a lapse in coverage, thus minimizing the
chance of having a non-insured injury, will receive a
relatively low fine per day under the schedule of fines
contained in Rule 3-6(D). However, an employer that
continues to operate without insurance for a lengthy
period of time creates an ever-growing risk that a
worker will be injured and be forced to rely solely on
the employer to pay for the injury. Thus, the escalating
nature of the fine structure accounts for the potential
harm and the fine assessed.
6. Finally, as to the third prong, the difference
between the fine imposed and the penalties authorized
or imposed in comparable cases, Rule 3-6(D) creates a
system by which any employer that has committed a
subsequent violation is subject to the same table of
fines. Although the total amount of the fine can differ
between employers, such difference is dependent on the
length of time the employer fails to carry insurance, a
factor entirely within the employer’s control. See In the
matter of Z Stores, Inc. d/b/a Crown Market d/b/a ZMart 102, FEIN 84-1599355/26-4667847 (ICAO,
September 15, 2014) (employer’s responsibility to
maintain workers’ compensation insurance). Also, fines
imposed under Rule 3-6(D) have been upheld by the
Panel previously. See In the matter of El Nuevo Time
Out Corp., FEIN No. 01-0801734 (ICAP March 12,
2008) (finding that the constitutionality of fine cannot
be addressed, but assessment of subsequent offense
fine using only Rule 3-6(D) was not an abuse of
discretion); In the matter of Cullen R. Honeycutt d/b/a
Colorado Gun Works n/k/a Colorado Gun Works, LLC,
FEIN 11-3661626 & 26-4640556, (ICAO, April 13,
2012) (Use of Rule 3-6(D) to assess a $642,700 fine for

App. 96
a subsequent lapse of workers’ compensation insurance
affirmed; “It is not the function of the Panel to rewrite
the Workers’ Compensation Rules of Civil [sic]
Procedure”, pp. 3-4).
7. The Director determines that Rule 3-6(D)
incorporates and addresses all of the elements of the
Associated Business Products test, and thus that the
fine of $841,200.00 assessed against Respondent
according to that Rule is appropriate.
WHEREFORE, IT IS NOW ORDERED THAT:
1. A fine in the total amount as set out below and in
Exhibit A enclosed, is imposed for the period(s) noted
in the Exhibit and incorporated here as part of this
order. To the extent not modified by this order, the
findings of fact and conclusions contained in the
Director’s supplemental order of April 21, 2015, are
hereby incorporated as part of this order.
2. Respondent is ordered to pay by cashier’s check,
payable to the Treasurer, State of Colorado, a fine in
the initial amount of $841,200.00 (Eight Hundred
Forty-One Thousand Two Hundred Dollars)
determined in accordance with the provisions of Rule 36 and calculated as is more fully set out in Subsequent
Violation Exhibit A enclosed and incorporated herein
by reference.
3. Respondent is to mail or otherwise deliver the total
amount of $841,200.00 (Eight Hundred Forty-One
Thousand Two Hundred Dollars) ALONG WITH A
COPY OF THIS ORDER to the Director, Division of
Workers’ Compensation, 633 17th Street, Suite 400,
Denver, Colorado 80202 immediately, but in no event

App. 97
later than twenty (20) days from the date of this
ORDER.
4. Respondent is to provide to the Director upon the
Director’s request, proof of workers’ compensation
insurance coverage (or evidence satisfactory to the
Director supporting exemption there from) for any
period or periods requested by the Director for which
the Director has cause to believe that coverage was or
may have been required.
DIVISION OF WORKERS’ COMPENSATION
BY /s/Paul Tauriello
Paul Tauriello Director
This Order of the Director is final and not subject
to appeal unless a petition to review, meeting the
requirements of and in compliance with the
provisions of §8-43-301(2) is filed with the
Director and mailed or delivered as required in
that statute to the Director, Division of Workers’
Compensation, 633 17th Street, Suite 400, Denver,
Colorado 80202 within twenty (20) days after the
date this Order is mailed.
A copy of this ORDER was mailed to the following at
the addresses shown below on August 27, 2015 by
Nikki Gwin.
Dami Hospitality, LLC
2341 East Dartmouth Place
Englewood, CO 80110
Daniel T. Goodwin
Daniel T. Goodwin Law Offices

FEIN: 84-1545878

App. 98
8001 Arista Pl., Ste. 400
Broomfield, CO 80021
BY FACSIMILE ONLY TO: (303) 457-1175
(Attorney for Respondent)

App. 99
EXHIBIT A
In the matter of
Dami Hospitality, LLC
2341 East Dartmouth Place
Englewood, CO 80110
FEIN: 84-1545878

August 27, 2015

Records show that on and/or after July 1, 2005, the
Respondent employed one or more persons in the State
of Colorado and that Respondent was not exempt from
but was subject to the provisions of the Act on and
during the times noted immediately below:
August 10, 2006 through June 8, 2007
And
September 12, 2010 through July 9, 2014
$250.00 per day for each day for the period from
August 10, 2006 through August 29, 2006 in the
amount of $5,000.00 (Five Thousand Dollars).
$260.00 per day from August 30, 2006 through
September 3, 2006 in the amount of $1,300.00 (One
Thousand Three Hundred Dollars).
$280.00 per day from September 4, 2006 through
September 8, 2006 in the amount of $1,400.00 (One
Thousand Four Hundred Dollars).
$300.00 per day from September 9, 2006 through
September 13, 2006 in the amount of $1,500.00 (One
Thousand Five Hundred Dollars).
$400.00 per day from September 14, 2006 through
September 18, 2006 in the amount of $2,000.00 (Two
Thousand Dollars).

App. 100
$500.00 per day from September 19, 2006 through June
8, 2007 in the amount of $131,500.00 (One Hundred
Thirty-One Thousand Five Hundred Dollars).
$500.00 per day from September 12, 2010 through July
9, 2014 in the amount of $698,500.00 (Six Hundred
Ninety-Eight Thousand Five Hundred Dollars).
The total amount of the fine for the periods noted
above is $841,200.00 (Eight Hundred Forty-One
Thousand Two Hundred Dollars).

App. 101

APPENDIX E
INDUSTRIAL CLAIM APPEALS OFFICE
W.C. No. 84-1545878
[Filed July 30, 2015]
______________________________________
IN THE MATTER OF THE CLAIM OF )
)
DIVISION OF WORKERS’
)
COMPENSATION,
)
)
Petitioner,
)
)
v.
)
)
DAMI HOSPITALITY, LLC,
)
)
Respondent Employer,
)
______________________________________ )
ORDER OF REMAND
The respondent seeks review of a supplemental
order of the Director of the Division of Workers’
Compensation (Director) dated April 21, 2015, that
assessed and ordered the respondent to pay a fine for
failing to meet its statutory obligation to maintain
workers’ compensation insurance. We set aside the
decision and remand the matter for additional findings
and a new order.

App. 102
On February 19, 2014, the Director issued a Notice
to Show Compliance – Subsequent Violation directing
the respondent to provide evidence of workers’
compensation insurance or, alternatively, to provide a
written explanation of an exemption for the period from
July 1, 2005, to the present. The Notice also directed
the respondent to complete and return a compliance
questionnaire. This Notice was delivered to the
respondent’s address of record in Denver, Colorado as
provided in the respondent’s Articles of Incorporation
filed with the Colorado Secretary of State on May 11,
2000, and the address provided by the respondent on
its unemployment insurance reports. The record does
not disclose that the respondent submitted a response
to the Director’s Notice.
Thereafter, on June 25, 2014, the Director issued
another Notice to Show Compliance – Subsequent
Violation directing the respondent to provide evidence
of workers’ compensation insurance or, alternatively, to
provide a written explanation of an exemption for the
period from July 1, 2005, to the present. The Notice
also directed the respondent to complete and return a
compliance questionnaire. This Notice was delivered to
the owner/registered agent of the respondent at her
home address in Englewood, Colorado. The respondent
was given 20 days to respond to the Director’s Notice.
The Director notified the respondent that if it was in
default of its insurance obligations, then fines would be
assessed from a minimum of $250 per day up to $500
per day for its second or subsequent violation. The
respondent also was advised of and afforded the
opportunity to request a prehearing conference
regarding the issue of default. The record does not

App. 103
disclose that the respondent requested a prehearing
conference.
On October 30, 2014, the Director issued his order,
finding that the respondent had employed one or more
persons on or after July 1, 2005, and that the
respondent failed to provide satisfactory proof of
workers’ compensation insurance coverage and failed
to satisfactorily demonstrate why it was exempt from
the insurance requirements for the periods of August
10, 2006, through June 8, 2007, and September 12,
2010, through July 9, 2014. Finding the respondent in
default of its insurance obligations, the Director
imposed a fine totaling $841,200.00 pursuant to §8-43409, C.R.S. and Workers’ Compensation Rule of
Procedure 3-6. Fines were assessed in various amounts
from August 10, 2006, through June 8, 2007, and from
September 12, 2010, through July 9, 2014. Moreover, in
an order dated May 24, 2006, the Director previously
had found the respondent in default of its insurance
obligations. The Director found that the respondent’s
previous period of default ended on June 9, 2006, when
the respondent obtained a workers’ compensation
insurance policy.
The respondent appealed the Director’s order,
arguing that it was unaware its workers’ compensation
insurance coverage had lapsed because it had relied on
its insurance broker to follow its instructions to obtain
the required insurance coverage, and that the Division
of Workers’ Compensation (Division) had failed to
notify the respondent in a timely manner that its
insurance coverage had been cancelled. The respondent
also argued that the Director’s Notice was improper

App. 104
because it was sent to an incorrect business name, or to
“Dami Hospitality LLC d/b/a Motel 8.” The respondent
alleged that “Motel 8” had not been an active name
since August 2006. The respondent finally contends the
Director has imposed an “absurd fine,” essentially
arguing that the Director had not exercised any
discretion regarding the amount of the fine, and that
the fine is unconstitutional.
The Director subsequently issued his supplemental
order. The Director determined that it was the
responsibility of the insurance carrier, not the Division,
to notify the respondent its policy had lapsed, and in
any event, it is the respondent’s responsibility to
maintain its insurance coverage. Section 8-44-110,
C.R.S. The Director also noted that pursuant to the
National Council on Compensation Insurance, Inc., the
respondent’s 2006 workers’ compensation insurance
policy was cancelled for nonpayment of premium, and
its 2010 policy was cancelled for “failure to comply with
the terms & conditions or audit failure.” Thus, the
Director concluded that both of these circumstances
were within the respondent’s control. The Director also
determined that pursuant to the respondent’s Articles
of Incorporation filed with the Colorado Secretary of
State on May 11, 2000, the legal name for the
respondent’s business is “Dami Hospitality L.L.C.” The
Director’s Notice was mailed to “Dami Hospitality LLC
d/b/a Motel 8” at its address of record in Denver,
Colorado under a certificate of mailing dated February
19, 2014. Further, the Director’s Notice also was sent
on June 25, 2014, to “Dami Hospitality LLC d/b/a Motel
8” at the owner’s home address in Englewood,
Colorado. The Director determined that since the

App. 105
respondent admitted it received the June 25, 2014,
Notice to Show Compliance – Subsequent Violation, it
reasonably should have understood that the Notice
addressed to “Dami Hospitality LLC” was directed to
the respondent’s business. The Director also decided he
had no basis for addressing the constitutionality of §843-409, C.R.S. The Director, therefore, concluded that
the respondent was in default of its insurance
obligation during the periods of August 10, 2006,
through June 8, 2007, and September 12, 2010,
through July 9, 2014, and ordered the respondent to
pay a fine totaling $841,200.00. Section 8-43-409,
C.R.S.; WCRP 3-6.
I.
On appeal, the respondent argues that the Director
failed to prove by clear and convincing evidence that it
knew or reasonably should have known it was in
violation of Colorado’s Workers’ Compensation Act
(Act). The respondent contends the fine that the
Director imposed under §8-43-409, C.R.S., is a penalty
within the meaning of §8-43-304(1), C.R.S. According to
the respondent, under subsection (4) of §8-43-304,
C.R.S., no penalty can be imposed unless the Director
has proven by clear and convincing evidence that the
respondent knew or reasonably should have known it
was in violation of the Act. The respondent also
contends that under §8-43-304, C.R.S., no penalty
should be imposed since it ultimately obtained workers’
compensation insurance coverage within 20 days of the
Notice. We disagree.

App. 106
Section 8-43-409, C.R.S., the statutory provision
governing defaulting employers, provides in pertinent
part as follows:
(4) The issuance of an order to cease and desist,
the imposition of a fine pursuant to subsection
(1) of this section, or the issuance of an order for
injunctive relief against an employer for failure
to insure or to keep insurance in force as
required by articles 40 to 47 of this title shall be
the penalty for such failure within the meaning
of section 8-43-304 (1) and such penalty shall be
in addition to the increase in benefits that
section 8-43-408 requires.
Additionally, §8-43-304(1), C.R.S., the statutory
provision governing violations and penalties for
violations of the Act, provides in pertinent part as
follows:
Any employer or insurer, or any officer or agent
of either, or any employee, or any other person
who violates any provision of articles 40 to 47 of
this title, or does any act prohibited thereby, or
fails or refuses to perform any duty lawfully
enjoined within the time prescribed by the
director or panel, for which no penalty has been
specifically provided, or fails, neglects, or refuses
to obey any lawful order made by the director or
panel or any judgment or decree made by any
court as provided by said articles shall be subject
to such order being reduced to judgment by a
court of competent jurisdiction and shall also be
punished by a fine of not more than one
thousand dollars per day for each such offense,

App. 107
to be apportioned, in whole or part, at the
discretion of the director or administrative law
judge, between the aggrieved party and the
workers’ compensation cash fund created in
section 8-44-112 (7) (a) .... (emphasis added)
Section 8-43-409(4), C.R.S. references §8-43-304(1),
C.R.S. for the purpose of stating that the one thousand
dollars per day fine contained within that section is
inapplicable to defaulting employers under §8-43-409,
C.R.S. This is because §8-43-304(1), C.R.S. specifically
states that the one thousand dollars per day fine
applies only where no penalty is elsewhere specifically
provided in the Act. Section 8-43-409, C.R.S., however,
specifically provides the fine to be imposed against
employers that fail to maintain workers’ compensation
insurance. See Pena v. Industrial Claim Appeals Office,
117 P.3d 84 (Colo. App. 2004); see generally Holliday v.
Bestop, 23 P.3d 700 (Colo. 2001). Section 8-43-409,
C.R.S. does not reference or attempt to apply any other
section of §8-43-304, C.R.S., including the heighted
burden of proof standard set forth in §8-43-304(4),
C.R.S. Thus, the respondent’s argument
notwithstanding, the clear and convincing standard set
forth in §8-43-304(4), C.R.S. is inapplicable and does
not set forth the burden of proof governing a case
involving an employer’s default of its mandatory
workers’ compensation insurance obligations. Section
8-43-409, C.R.S. Similarly, we also reject the
respondent’s argument that pursuant to §8-43-304(4),
C.R.S., no penalty should be imposed because it
obtained workers’ compensation insurance coverage
and timely cured its default within 20 days of the
Director’s Notice. Consequently, we will not disturb the

App. 108
Director’s supplemental
arguments.

order

based

on

these

II.
The respondent next contends it lacked knowledge
that it was in violation of the Act. According to the
respondent, it reasonably believed it was in compliance
with the statute. The respondent also argues it relied
upon its insurance agent to maintain adequate
insurance coverage, and the Director failed to timely
notify the respondent of the default. We are not
persuaded to disturb the Director’s supplemental order.
Employers that are subject to the terms and
provisions of Colorado’s Workers’ Compensation Act
(Act), §§ 8-40-101 to 8-47-209, C.R.S., are required to
have insurance in compliance with the Act. Section 843-409(1), C.R.S. Pursuant to §8-43-409(1), C.R.S., an
employer that “fails to insure or to keep the insurance
required . . . allows the insurance to lapse, or fails to
effect a renewal of the insurance shall not continue
business operations while such default in effective
insurance continues.” The Director may impose fines
for every day that the employer fails to comply with the
insurance requirements. Section 8-43-409(1)(b)(I),
C.R.S. Further, for subsequent violations, the amount
of the daily fine must be, at least, $250 and may be as
high as $500. Section 8-43-409(1)(b)(II), C.R.S.
Additionally, Rule 3-6(D), 7 Code Colo. Reg. 1101-3
provides for an escalating scale of fines to be imposed
upon a finding of an employer’s second default of its
insurance obligations. For example, pursuant to the
schedule of fines listed in Rule 3-6(D), for days 1-20 of

App. 109
default, the fine is $250 per day, and for days 41 or
over of default, the fine is $500 per day.
The respondent’s lack of intent with regard to its
violation of the mandatory workers’ compensation
insurance requirements is not a factor that relieves the
respondent from the imposition of a fine or that
precludes a finding of being in default under §8-43409(1)(b)(II), C.R.S. See Humane Society of the Pikes
Peak Region v. Industrial Claim Appeals Office, 26
P.3d 546 (Colo. App. 2001)(court may not read nonexistent provision into statute). Similarly, the fact that
the respondent used and relied on an insurance agent
to maintain its insurance obligations also is not a factor
that relieves the respondent from the imposition of a
fine or that precludes a finding of being in default
under §8-43-409(1)(b)(II), C.R.S. Neither factor relieves
the respondent of its burden to comply with its
mandatory insurance obligations. Section 8-44-101,
C.R.S.; §8-47-111, C.R.S. As stated above, employers,
such as the respondent, that are subject to the terms
and provisions of the Act, §§ 8-40-101 to 8-47-209,
C.R.S., are required to have insurance in compliance
with the Act. Section 8-43-409(1), C.R.S. We further
note that since the respondent previously was in
default of its insurance obligations in 2006, it should
have been aware of the necessity to ensure that a policy
of workers’ compensation insurance was in place
during the time period it employed one or more
persons. Section 8-44-101, C.R.S.
III.
The respondent again argues that it did not receive
adequate notice. The respondent contends that the

App. 110
Director’s Notice to Show Compliance – Subsequent
Violation was not provided to the correct business
entity because it was sent to “Dami Hospitality, LLC,
d/b/a Motel 8.” The respondent asserts that “Motel 8”
has not been its proper trade name since August 2006.
The respondent further argues that the Director’s
service by mail of a fine totaling $841,200.00 is not
reasonable. We are not persuaded by the respondent’s
arguments.
Generally, statutory and due process protections
require that all parties receive notice of administrative
proceedings which may result in the deprivation of a
significant property interest. Colorado State Board of
Medical Examiners v. Palmer, 157 Colo. 40, 400 P.2d
914 (1965); Hall v. Home Furniture Co., 724 P.2d 94
(Colo. App. 1986). Further, Colorado’s Department of
Labor and Employment Rule 1-4(1), 7 Code Colo. Regs.
1101-3, provides that proper service is to be made by
mail. See Kuhndog, Inc. v. Industrial Claim Appeals
Office, 207 P.3d 949, 950 (Colo. App. 2009); Bowlen v.
Munford, 921 P.2d 59, 60 (Colo. App.
1996)(acknowledging rule that whenever a document is
filed with the Division, a copy of the document shall be
mailed “to each party to the claim” and attorneys of
record). Moreover, a properly executed certificate of
mailing creates a presumption that a notice was
received, but the presumption may be overcome by
competent evidence. Campbell v. IBM Corp., 867 P.2d
77 (Colo. App. 1993).
Here, in its brief in support, the respondent does not
contend it did not receive the Director’s Notice to Show
Compliance – Subsequent Violation that was sent by

App. 111
the certificate of mailing on June 25, 2014, to the home
address of its owner/registered agent. In fact, the
respondent specifically acknowledges in its Brief In
Support that its owner/registered agent did receive the
Director’s Notice to Show Compliance – Subsequent
Violation on approximately June 28, 2014. Brief In
Support at 8 ¶ 48, and 14. Consequently, we reject the
respondent’s contention that it failed to receive
adequate notice merely because the Notice incorrectly
listed “Motel 8” as part of the respondent’s business
name. See also Huskinson v. Metro Construction, Inc.,
W.C. No. 4-918-495 (Feb. 7, 2014). Additionally, to the
extent the respondent argues that the Director’s service
by mail of a fine totaling $841,200.00 is not reasonable,
Rule 1-4 specifically provides for the service of such a
document by mail. Thus, we will not disturb the
Director’s supplemental order on these grounds.
IV.
The respondent argues at different points in its
Brief In Support that the penalty assessed by the
Director is too large. The respondent characterizes it as
“absurd.” It contends that a penalty in the amount of
$841,200.00 will cause the respondent to become
insolvent. The respondent observes it sustained no
worker’s injury claims during the period of the penalty,
or ever, and that it produced statements from its owner
and insurance brokers explaining that the workers’
compensation insurance coverage was not clearly
explained to the owner due to her language barrier
since her first language is Korean. The respondent then
asserts the fine assessed is unconstitutional. While the
respondent’s Brief In Support does not specify precisely

App. 112
which section of the constitution is being referenced, it
is apparent from the respondent’s argument that the
penalty is excessive and so would be in violation of the
Eighth Amendment to the federal constitution or
Article II, section 20 of the Colorado constitution. Both
prohibit the imposition of “excessive fines.”
The respondent asserts it did not include extensive
argument in regard to this issue in its Brief in Support
for the reason that administrative agencies have been
held to be without jurisdiction to consider
constitutional attacks pertinent to the statute they are
charged with implementing. It is true that we lack
jurisdiction to address a facial constitutional challenge
to a statute. Kinterknecht v. Industrial Commission,
175 Colo. 60, 485 P.2d 721 (1971); Celebrity Custom
Builders v. Industrial Claim Appeals Office, 916 P.2d
539 (Colo. App. 1995). In Horrell v. Department of
Administration, 861 P.2d 1194, 1196 (Colo. 1993),
however, the Colorado Supreme Court indicated that
administrative agencies have the authority to
determine whether “an otherwise constitutional statute
has been unconstitutionally applied.” See also Pepper
v. Industrial Claim Appeals Office, 131 P.3d 1137, 1139
(Colo. App. 2005).
As noted above, the pertinent statutory section, §843-409(1)(b)(II), C.R.S., provides that “for every day” an
employer fails to maintain insurance coverage, the
Director is instructed to impose a fine of “[n]ot less
than two hundred fifty dollars or more than five
hundred dollars .... ” In this matter, the statute is
mandating a minimum fine of $425,000 ($250 per day)
and a maximum fine of $850,000 ($500 per day). To the

App. 113
extent the respondent complains a fine of $425,000 is
unconstitutional, we have no authority to rule on such
a facial challenge. However, insofar as the respondent
contends the Director has failed to adequately exercise
his statutory discretion to impose a fine of more than
that amount but less than the $841,200.00 assessed, we
may review the matter in regard to its constitutional
validity. See Horton v. Wal-Mart Stores, W.C. No. 4583-068 (November 5, 2004).
Section 8-43-304(1), C.R.S. is similar to §8-43409(1)(b)(II), C.R.S. when it allows the Director or an
Administrative Law Judge to impose a fine for
violations of a statute, rule, or an order. That section
provides for a range of daily penalties from a low of 1¢
to a maximum of $1,000. In Associated Business
Products v. Industrial Claim Appeals Office, 126 P.3d
323 (Colo. App. 2005), the Court discussed the
considerations necessary to the exercise of the ALJ’s
discretion to prevent any fine so imposed from violating
the excessive fines prohibition. The Court relied on the
decision in Cooper Industries, Inc. v. Leatherman Tool
Group, Inc., 532 U.S. 424, 121 S.Ct. 1678, 149 L.Ed.2d
674 (2001). That case required three criteria to be
considered when fashioning a constitutionally
appropriate level for a fine. These include the following:
(1) the degree of reprehensibility of the defendant’s
misconduct; (2) the disparity between the harm or
potential harm suffered and the fine to be assessed;
and (3) the difference between the fine imposed and the
penalties authorized or imposed in comparable cases.
Associated Business Products v. Industrial Claim
Appeals Office, 126 P.3d at 326. Because the General
Assembly charged the Director with exercising similar

App. 114
authority and discretion in regard to fines pertinent to
§8-43-409(1)(b)(II), C.R.S., these factors must also be
applied by the Director when assessing fines. In the
Matter of El Nuevo Time Out Corp., FEIN No. 010801734 (March 20, 2008)(recognizing consideration of
three criteria announced in Associated Business
Products v. Industrial Claim Appeals Office, 126 P.3d
323 (Colo. App. 2005) when determining
constitutionally appropriate level of a fine).
Here, in his supplemental order, the Director based
the $841,200.00 fine solely on the basis of Rule 3-6.
That rule considers only the length of time involved in
the violation and no other factor or criteria. Section §843-409(1)(b)(II), C.R.S., however, does not limit the
Director’s discretion to this single factor. Nor does the
constitutional prohibition on excessive fines allow the
Director to avoid consideration of other factors or
criteria when imposing penalties or fines. Instead, as
detailed above, when imposing a fine, the holding in
Associated Business Products mandates consideration
of the three factors in addition to the length of time
involved of the violation as announced in Rule 3-6.
Consequently, we are required to remand this matter
to the Director for the purpose of considering the three
factors addressed in Associated Business Products
when determining the permissible fine to be imposed
against the respondent. Section 8-43-409(1), C.R.S.
provides that the Director may refer the matter to a
prehearing Administrative Law Judge or an
Administrative Law Judge to hold a hearing to provide
the respondent with the opportunity to present
supporting evidence on the pertinent factors or criteria
enunciated in Associated Business Products. Section 8-

App. 115
43-409(1), C.R.S. indicates that such a hearing may
address the respondent’s “default.” The Court in
Kuhndog, however, described how a hearing pertinent
to the issue of default also may address issues besides
simply default, including discovery matters and
evidentiary disputes. See also §8-43-207.5, C.R.S.
V.
The respondent has offered to settle the matter.
However, the Industrial Claim Appeals Office has no
authority regarding an offer of settlement. Section 843-301(8), C.R.S.
IT IS THEREFORE ORDERED that the
Director’s supplemental order dated April 21, 2015, is
set aside and the matter is remanded for further
findings as addressed in section IV above.
INDUSTRIAL CLAIM APPEALS PANEL
/s/David G. Kroll
David G. Kroll
/s/Kris Sanko
Kris Sanko
***
[Certificate of Mailing Omitted in the
Printing of this Appendix]

App. 116

APPENDIX F
STATE OF COLORADO
BEFORE THE DEPARTMENT OF
LABOR AND EMPLOYMENT
DIVISION OF WORKERS’ COMPENSATION
FEIN: 84-1545878
[Filed April 21, 2015]
__________________________
In the matter of:
)
Dami Hospitality, LLC
)
Respondent
)
__________________________ )
SUPPLEMENTAL ORDER SUBSEQUENT VIOLATION
THIS MATTER comes before the Director of the
Division of Workers’ Compensation (“Director”) on
Respondent’s Petition to Review the order entered by
the Director on October 30, 2014. That order imposed
fines for Respondent’s failure to have workers’
compensation insurance in place from August 10, 2006
through June 8, 2007 and September 12, 2010 through
July 9, 2014. Respondent has submitted a Petition to
Review that was received by the Division of Workers’
Compensation (“Division”) on November 18, 2014 and
a brief dated March 6, 2015. Therefore, having
reviewed this correspondence, relevant statutes and
case law, as well as other information contained in the
records of the Colorado Department of Labor and

App. 117
Employment (“COLE”) and, being otherwise further
advised, the Director issues the following Supplemental
Order.
1. Respondent’s petition to review does not contain a
certificate of mailing or service, but contains an
internal date of November 15, 2014. The petition was
received by the Division on November 18, 2014 as an
attachment to an e-mail as evidenced by the time and
date stamp on the printout of the e-mail to which the
petition was attached.
2. Section 8-43-301(2), C.R.S., requires that a petition
to review be filed within twenty (20) days from the date
of the certificate of mailing of the order appealed. It
further provides that the petition “may be filed by mail,
and shall be deemed filed upon the date of mailing, as
determined by the certificate of mailing.” (Emphasis
added.) Workers’ Compensation Rules of Procedure 1-2
(7 CCR 1101-3) provides that “unless a specific rule or
statute states to the contrary, the date a document or
pleading is filed is the date it is mailed or hand
delivered to the Division of Workers’ Compensation or
the Office of Administrative Courts.” Accordingly, a
petition to review must either be “delivered” or the
certificate of mailing must demonstrate mailing within
20 days of the certificate of the mailing of the order
under appeal. Buschmann v. Gallegos Masonry Inc.,
805 P.2d 1193 (Colo. App. 1991). Although the petition
did not contain a certificate of mailing, it contained an
internal date of November 15, 2014, and was received
by the Division on November 18, 2014, within the 20
days afforded by statute. Therefore, the Director
determines that, under the totality of the

App. 118
circumstances presented here, Respondent’s petition to
review was timely filed.
3. Respondent does not dispute that it operated with
employees and without workers’ compensation
insurance. Section 8-47-111, C.R.S., establishes the
Colorado General Assembly’s intention that Colorado
employers who fall under the provisions of Articles 40
to 47 of Title 8 provide workers’ compensation
insurance coverage for their Colorado employees
through a current policy of workers’ compensation
insurance or through regulated self-insurance. Section
8-44-101, C.R.S., provides that an employer “shall
secure compensation in one or more of the following
ways, which shall be deemed to be compliance with the
insurance requirements” of the Act, and specifies that
employers may meet their insurance obligations either
by obtaining insurance from a company authorized to
write such insurance in Colorado or by procuring a selfinsurance permit from the appropriate authority as
indicated in the statute. Thus, an employer that is
required to have insurance that does not obtain an
authorized workers’ compensation insurance policy or
a self-insurance permit, does not meet the statutory
insurance requirement and is in default of its statutory
obligation. Respondent does not deny that it had
employees and operated without insurance during the
periods from August 10, 2006 through June 8, 2007,
and September 12, 2010 through July 9, 2014. Thus,
Respondent was required under § 8-44-101 to obtain
and maintain coverage for those employees.
4. Respondent contends that it was not aware that the
workers’ compensation insurance coverage had lapsed

App. 119
and that the Division should have contacted the
Respondent sooner to notify the Respondent that the
policy had cancelled. Initially, the Director notes that
the responsibility of notifying Respondent of the
cancellation was that of the insurance carrier, not the
Division. Section 8-44-110, C.R.S. However, it was the
Respondent’s responsibility to maintain its insurance
coverage. Section 8-44-101(1), C.R.S. provides that
employers “shall secure compensation for all
employees” either by obtaining insurance from a
company authorized to write such insurance in
Colorado or by procuring a self-insurance permit from
the appropriate authority as indicated in the statute.
Thus, it was Respondent’s obligation to maintain
workers’ compensation for its employees. In the matter
of Cullen R. Honeycutt d/b/a Colorado Gun Works
n/k/a Colorado Gun Works, LLC, FEINS 11-3661626
& 26-4640556, (ICAO, April 13, 2012). Although
Respondent argues that it was not aware that the 2006
and the 2010 insurance policies had cancelled, proof of
coverage records of the National Council on
Compensation Insurance, Inc. (“NCCI”), the
organization designated and required by the Division
to receive notification of insurance coverage status
under Workers’ Compensation Rules of Procedure, 7
Code Colo. Reg. 1101-3, Rule 3-1(A), shows that
Respondent’s 2006 workers’ compensation insurance
policy cancelled for nonpayment of premium on August
10, 2006, and Respondent’s 2010 policy cancelled on
September 12, 2010 for “failure to comply with the
terms & conditions or audit failure”. (Documents
entitled “Proof of Coverage Inquiry – Cancellations /
Reinstatements / NonRenewals” printed on “5/2/2014”
and “10/3/2014”.) Both of those circumstances were

App. 120
within Respondent’s control. Since Respondent was
aware of the requirement to have workers’
compensation insurance, it was Respondent’s
responsibility to take appropriate measures to ensure
that such coverage remained in place. Id.
5. Respondent further asserts that it relied on its
insurance agent to continue all insurance coverage and
that Respondent believed that adequate workers’
compensation insurance was maintained. However, as
noted previously, Respondent’s policies cancelled
because of nonpayment and the Respondent’s failure to
comply with or complete an insurance audit. Those
actions were within Respondent’s control. Respondent
points to a letter from Young Kim, Respondent’s
insurance agent, as proof that Respondent was
unaware that its workers’ compensation insurance was
not in place. The letter from the agent states: “I think
I feel part of responsibility for this matter that I did not
tell about Worker’s [sic] Compensation and I will be
managing my client in the future. Actually, she
confused Property Insurance and Worker’s [sic]
Compensation.” (Letter from Young Kim, Farmers
Insurance Agent, dated November 25, 2014.) However,
the letter does not indicate that Respondent was
unaware of the absence of a policy of workers’
compensation insurance, nor does it indicate that the
agent failed to secure workers’ compensation insurance
despite the request of Respondent. There is also no
indication in the letter that Respondent continued to
pay for workers’ compensation insurance even though
no policy was in place. Moreover, even if Respondent’s
reliance on the agent was reasonable and the
Respondent acted quickly to obtain a new insurance

App. 121
policy, Respondent was not relieved of its obligation to
maintain workers’ compensation coverage under the
Act; indeed, Respondent’s Petition appears to
acknowledge its awareness that coverage was required
for its employees. Nevertheless, Respondent continued
its business operations without such coverage in
violation of § 8-43-409, C.R.S., and § 8-44-101.
6. Respondent next contends that notice was improper
because it was sent to an incorrect business name, in
that the notice was sent to “Dami Hospitality LLC d/b/a
Motel 8". Respondent contends that “Motel 8” has not
been a trade name for respondent since August 2006,
and thus that notice was improper. However,
Respondent’s Articles of Incorporation filed with the
Colorado Secretary of State on May 11, 2000, state that
the legal name for Respondent’s business is “Dami
Hospitality L.L.C.” The record shows that the
Director’s Notice to Show Compliance containing the
Employer’s Compliance Questionnaire for Respondent’s
completion was mailed to “Dami Hospitality LLC d/b/a
Motel 8” at its address of record, 3850 Peoria St.,
Denver, CO 80239-3314, under Certificate of Mailing
dated February 19, 2014. The Director notes that 3850
Peoria St., Denver, CO 80239, is the current address
listed for “Dami Hospitality LLC” in Secretary of State
records, the address provided by Respondent on its
Unemployment Insurance reports, and the address
provided for the business in Respondent’s brief. The
record also does not indicate that the February 19,
2014 notice was returned to the Division. Moreover,
Respondent admits that it received the June 25, 2014
notice sent to “Dami Hospitality LLC d/b/a Motel 8” at
2341 East Dartmouth Place, Englewood CO 80110,

App. 122
which Respondent indicates is the owner’s home
address. Therefore, the Director finds that Respondent
reasonably should have understood that a notice
addressed to “Dami Hospitality LLC”, was directed to
Respondent’s business.
7. Respondent also argues that service by mail was
inappropriate and unreasonable considering the
possible magnitude of the fine. However, Respondent
concedes that Rule 1-4 provides that service by mail is
proper. Bowlen v. Munford, 921 P.2d 59 (Colo. App.
1996). Also, at the time the notice was mailed, it was
unknown whether a fine would actually be assessed, or
if so, how much it would be. Although Division records
did not show current coverage for Respondent at the
time the notice was mailed, that does not necessarily
mean coverage did not exist. Rule 3-1(A) provides that
insurance carriers are to report coverage information
electronically to the National Council on Compensation
Insurance (“NCCI”), the Division’s designated agent to
receive such information. Various problems can arise in
the course of this data transmission. An employer’s
insurance information may contain errors when it is
reported to NCCI by the insurance carrier, the carrier
may fail to report the policy information altogether, or
there may be a failure on the part of NCCI to correctly
transmit policy information to the Division. The Notice
to Show Compliance requests that the Respondent
provide certificates of insurance or declaration pages
from its workers’ compensation insurance policies for
the period from July 1, 2005 to present so that the
Respondent has an opportunity to provide policy
information unavailable to the Division which would
affect not only the amount of the fine, but whether a

App. 123
fine is applicable at all. Therefore, it was not
unreasonable for the notice to be delivered by mail to
Respondent insofar as the notice was requesting the
Respondent’s information regarding a potential default.
Moreover, as noted previously, Respondent concedes
that it received the June 25, 2014 notice.
8. Respondent next asserts that because Respondent
was unaware that the insurance policy had cancelled,
and because Respondent obtained worker’s
compensation insurance within 20 days of the Notice to
Show Compliance, no penalty should be assessed.
Respondent argues in its brief that § 8-43-409(4)
provides that a fine imposed under that section “shall
be a penalty for such failure within the meaning of
C.R.S. § 8-43-304(1) ... ”, but that § 8-43-304(4), C.R.S.
provides that “the party seeking such penalty
[Director] fails to prove by clear and convincing
evidence that the alleged violator [Petitioner] knew or
reasonably should have known such person was in
violation, no penalty shall be assessed.”
9. Section 8-43-304(1) authorizes the imposition of
penalties of up to $1,000 per day on an employer that:
“violates any provision of articles 40 to 47 of this
title, or does any act prohibited thereby, or fails
or refuses to perform any duty lawfully enjoined
within the time prescribed by the director or
panel, for which no penalty has been specifically
provided, or fails, neglects, or refuses to obey
any lawful order made by the director or panel
. . . ” (Emphasis added).

App. 124
In Pena v. Industrial Claim Appeals Office, 117 P.3d 84
at 88 (Colo. App. 2004), the court held that the limiting
clause “for which no penalty has been specifically
provided” applies to “acts and omissions that are
contrary to articles 40 through 47 of the Act.” Section
8-43-409(1) creates a duty on employers to cease
business operations if the employer “fails to insure or
to keep the insurance required by [the Act] in force,
allows the insurance to lapse, or fails to effect a
renewal of the insurance”, and § 8-43-409(1)(b) sets
forth specific penalties should an employer fail to do so,
including a fine of up to $250.00 for an initial violation,
and fines of “not less than two hundred fifty dollars or
more than five hundred dollars for a second and any
subsequent violation.” Moreover, as Respondent noted,
§ 8-43-409(4) provides that a fine imposed under § 8-43409(1) is the penalty within the meaning of 8-43-304(1).
10.
In interpreting § 8-43-409 and 8-43-304, the
ordinary rules of statutory construction are
appropriate. The purpose of statutory construction is to
effect the legislative intent, and the best indicator of
legislative intent is the language of the statute. Thus,
words and phrases in a statute should be given their
plain and ordinary meaning, and phrases should be
read in context and construed according to the rules of
grammar and common usage. Section 2-4-101, C.R.S;
Weld County School District RE-12 v. Bymer, 955 P.2d
550 (Colo. 1998). However, statutory language should
not be construed in a manner which produces an
absurd result. Humane Society of the Pikes Peak Region
v. Industrial Claim Appeals Office, 26 P.3d 546 (Colo.
App. 2001).

App. 125
11.

Section 8-43-409(4) states:
The issuance of an order to cease and desist, the
imposition of a fine pursuant to subsection (1) of
this section, or the issuance of an order for
injunctive relief against an employer for failure
to insure or to keep insurance in force as
required by articles 40 to 47 of this title shall be
the penalty for such failure within the meaning
of section 8-43-304 (1) and such penalty shall be
in addition to the increase in benefits that
section 8-43-408 requires.

The statute’s plain language is unambiguous. The
three actions listed in § 8-43-409(1) are each listed
using the distinctive conjunction “or”, followed by the
proclamation that such penalty shall be the penalty for
failing to insure under the Act “within the meaning of”
§ 8-43-304(1). Accordingly, any of the actions taken by
the Director pursuant to § 8-43-409(1), including the
imposition of a fine, are in lieu of the penalty directed
by § 8-43-304(1). This is because an employer who fails
to secure and maintain the required workers’
compensation insurance is in violation of two statutes;
§ 8-43-409(1), which prohibits an employer from
operating while uninsured and contains specific
penalties for an employer that operates in spite of the
prohibition, and § 8-44-101, which requires employers
to secure insurance for their employees but does not
itself contain specific penalties and thus would be
subject to the penalty provisions of §8-43-304(1).
Section 8-43-409(4) therefore prevents an employer
from being punished twice for the same incidence of
failing to maintain workers’ compensation insurance by

App. 126
removing the potential for the employer to be penalized
up to $1,000 per day under the provisions of § 8-43304(1). However, although § 8-43-409(4) specifically
references § 8-43-304(1) and § 8-43-408, it does not
refer to the remaining provisions of § 8-43-304.
Therefore, it is clear that § 8-43-409 is a stand-alone
statute containing the complete consequences for an
employer’s failure to maintain workers’ compensation
insurance.
12.
Even if the additional provisions of § 8-43-304
were applicable, § 8-43-304(4) states:
“In any application for hearing for any penalty
pursuant to subsection (1) of this section, the
applicant shall state with specificity the grounds
on which the penalty is being asserted. After the
date of mailing of such an application, an
alleged violator shall have twenty days to cure
the violation. If the violator cures the violation
within such twenty-day period, and the party
seeking such penalty fails to prove by clear and
convincing evidence that the alleged violator
knew or reasonably should have known such
person was in violation, no penalty shall be
assessed. The curing of the violation within the
twenty-day period shall not establish that the
violator knew or should have known that such
person was in violation.” (Emphasis added).
Here, no application for hearing was filed. A Notice to
Show Compliance was mailed to the Respondent’s
address of record on February 19, 2014 and a second
Notice to Show Compliance was mailed to the home
address for Respondent’s owner on June 25, 2014.

App. 127
However, the Notice to Show Compliance is not an
application for hearing, but rather a request for the
employer to provide documentation of insurance or
reasons why the employer believes that it is exempt
from the insurance requirements of the Act. Although
§8-43-409(1) provides that the Director may, if
necessary, set the matter for hearing, this language is
permissive and no hearing was scheduled in this
matter, rendering § 8-34-304(4) inapplicable. Also, the
sanction issued in this matter was not a penalty issued
pursuant to § 8-43-304(1), but rather was a fine
pursuant to § 8-43-409(1).
13.
The Director further notes that the legislature
changed § 8-43-409 effective July 1, 2005. Prior to that
date, § 8-43-409 contained a provision that did
essentially what Respondent contends; suspend the
fine if insurance was obtained. Section 8-43-409(1)(b)
(III), C.R.S. 2004, stated:
The director shall suspend any fine imposed
pursuant to this paragraph (b) if the employer
provides proof suitable to the director that the
employer has in force insurance for so long as
the employer has any obligation under articles
40 to 47 of this title, and is not otherwise in
violation of articles 40 to 47.
The legislature’s removal of this language from § 8-43409 indicates that the intent was to disallow the
nullification of fines once a workers’ compensation
policy was obtained. Respondent’s interpretation would
reinstitute what the legislature removed in 2005 and
create a scenario by which any employer who obtained
a policy within 20 days of receiving a notice from the

App. 128
Division would not be subject to fines. An employer
could then repeatedly allow its workers’ compensation
insurance policy to lapse, and when noticed by the
Division, quickly get a new policy and avoid all
responsibility. Construing the Act as a whole, giving
consistent, harmonious, and sensible effect to all its
parts, and considering the consequences of alternative
constructions, the Director concludes that the cure
provisions of § 8-43-304(4) do not apply to fines or cease
and desist orders imposed pursuant to § 8-43-409(1).
14.
Likewise, the provisions of § 8-43-304(5) are also
inapplicable. Section 8-43-304(5) states: “A request for
penalties shall be filed with the director or
administrative law judge within one year after the date
that the requesting party knew or reasonably should
have known the facts giving rise to a possible penalty.”
However, § 8-43-409(1)(b) provides that fines are to be
assessed “[f]or every day that the employer fails or has
failed to insure or to keep the insurance required by
articles 40 to 47 of this title in force, allows or has
allowed the insurance to lapse, or fails or has failed to
effect a renewal of such coverage...” (Emphasis added).
This section was also changed by the legislature as of
July 1, 2005. Section 8-43-409(b)(I) and (II), C.R.S.
2004, stated that the Director was to:
“(I) Impose a fine of not more than five hundred
dollars for every day that the employer fails or
has failed to insure or to keep the insurance
required by articles 40 to 47 of this title in force,
or allows or has allowed the insurance to lapse,
or fails or has failed to effect a renewal of such
coverage; except that the director shall not

App. 129
impose a fine that exceeds the annual cost of the
insurance premium that would have been
charged for such employer.
(II) Any fine imposed pursuant to subparagraph
(I) of this paragraph (b) shall be imposed only for
those days that occur after the employer receives
a notice from the director that the employer has
failed to insure or to keep in force the insurance
required by articles 40 to 47 of this title in force,
or has allowed the insurance to lapse, or has
failed to effect a renewal of such coverage.”
(Emphasis added).
The legislature’s removal of the limitation of the fine to
the equivalent of one year of workers’ compensation
insurance premium, as well as the removal of the
limitation of fines to the time period after the employer
received notice from the Division, indicates that the
intent was not to limit the time period for which the
employer was to be fined for its default. Thus, the
Director concludes that the provisions of § 8-43-304(5)
do not apply to fines or cease and desist orders imposed
pursuant to § 8-43-409(1).
15.
Respondent also indicates that it is unable to
pay the fine amount. Section 8-43-409 C.R.S. was
amended effective July 1, 2005, and currently provides
that the Director shall impose fines of not less than
$250.00 or more than $500.00 per day for a second and
any subsequent violation. Here, it is undisputed that
Respondent was previously determined to be in
violation of the requirements of the Act and was
previously fined for such violation in accordance with
the provisions of the Act. The Workers’ Compensation

App. 130
Rules of Procedure, 7 Code Colo. Reg. 1101-3, were also
revised following the 2005 amendment of §8-43-409,
and Rule 3-6(D) provides an escalating scale of fines to
be assessed for each day of default depending upon the
length of time the employer remains in default. Neither
the Act nor the Workers’ Compensation Rules of
Procedure, including the schedule of fines, contain an
exclusion or exemption from incurring and paying a
fine based upon a Respondent’s financial inability to
pay. Moreover, the fine here was imposed within the
limitations contained in §8-43-409(1)(b)(II), C.R.S. and
as directed by Rule 3-6.
16.
Respondent asserts that “(t)he Division later
agreed to reduce the fine to $425,000”. Respondent’s
brief at 8. However, the fines imposed under §8-43-409,
and Rule 3-6(D) are not discretionary. The Director
notes that the amount of $425,000.00 cited in
Respondent’s brief was part of a settlement discussion,
which is outside the scope of this proceeding. Likewise,
Respondent’s settlement offer on page 14 of its brief is
not appropriately before the Director in this order.
17.
Finally, to the extent that Respondent argues
that the fine imposed under § 8-43-409, C.R.S. is
unconstitutional, the Director has no basis for
addressing this issue. Administrative agencies do not
have the authority to pass on the constitutionality of
statutes. That function may be exercised only by the
judicial branch of government. Arapahoe Roofing &
Sheet Metal, Inc. v. Denver, 831 P.2d 451 (Colo. 1992).
18.
Based upon the foregoing and the totality of the
circumstances presented, the Director concludes that
Respondent employed one or more employees during

App. 131
the periods from August 10, 2006 through June 8,
2007, and September 12, 2010 through July 9, 2014,
was not exempt from the provisions requiring workers’
compensation insurance coverage, and that Respondent
was in default of its insurance obligation during those
periods.
THEREFORE, IT IS NOW ORDERED:
1. As the Respondent is now in compliance with the
insurance provisions of the Act, the Director
determines that, under the totality of circumstances
presented, it is appropriate to impose fines on
Respondent.
2. Workers’ Compensation Rule of Procedure 3-6
provides schedules of fines for periods when coverage
should have been in place but was not. The fines to be
imposed are to be in accordance with the schedules of
fines contained in Rule 3-6. Consequently, a fine in the
total amount as set out below and in Subsequent
Violation Exhibit A enclosed, is now hereby imposed for
the period(s) noted in the Exhibit and incorporated
here as part of this order.
3. A fine in the total amount as set out below and in
Exhibit A enclosed, is imposed for the period(s) noted
in the Exhibit and incorporated here as part of this
order. To the extent not modified by this order the
findings of fact and conclusions contained in the
Director’s order of October 30, 2014 are affirmed and
incorporated here.
4. Respondent is ordered to pay by cashier’s check,
payable to the Treasurer, State of Colorado, a fine in
the initial amount of $841,200.00 (Eight Hundred

App. 132
Forty-One Thousand Two Hundred Dollars)
determined in accordance with the provisions of Rule 36 and calculated as is more fully set out in Subsequent
Violation Exhibit A enclosed and incorporated herein
by reference.
5. Respondent is to mail or otherwise deliver the total
amount of $841,200.00 (Eight Hundred Forty-One
Thousand Two Hundred Dollars) ALONG WITH A
COPY OF THIS SUPPLEMENTAL ORDER –
SUBSEQUENT VIOLATION to the Director, Division
of Workers’ Compensation, 633 17th Street, Suite 400,
Denver, Colorado 80202 immediately but in no event
later than twenty (20) days from the date of this
SUPPLEMENTAL ORDER – SUBSEQUENT
VIOLATION.
6. Respondent is to provide to the Director upon the
Director’s request, proof of workers’ compensation
insurance coverage (or evidence satisfactory to the
Director supporting exemption there from) for any
period or periods requested by the Director for which
the Director has cause to believe that coverage was or
may have been required.
DIVISION OF WORKERS’ COMPENSATION
BY /s/Paul Tauriello
Paul Tauriello, Director
This Supplemental Order – Subsequent Violation
of the Director is final and not subject to appeal
unless a petition to review meeting the
requirements of and in compliance with the
provisions of section 8-43-301(6) C.R.S. is filed. A
petition to review, along with any supporting

App. 133
brief, must be mailed or delivered to the Division
of Workers’ Compensation, 633 17th Street, Suite
400, Denver, Colorado 80202 within twenty (20)
days after the date this Supplemental Order –
Subsequent Violation is mailed.
A copy of this SUPPLEMENTAL ORDER SUBSEQUENT VIOLATION was mailed to the
following at the address shown below on April 21, 2015
by Erin M. J[].
Dami Hospitality, LLC
2341 East Dartmouth Place
Englewood, CO 80110

FEIN: 84-1545878

Daniel T. Goodwin
Daniel T. Goodwin Law Offices
8001 Arista Pl., Ste. 400
Broomfield, CO 80021
BY FACSIMILE ONLY TO: (303) 457-1175
(Attorney for Respondent)

App. 134
SUBSEQUENT VIOLATION EXHIBIT A
In the matter of
Dami Hospitality, LLC
2341 East Dartmouth Place
Englewood, CO 80110
FEIN: 84-1545878

April 22, 2015

Records show that on and/or after July 1, 2005, the
Respondent employed one or more persons in the State
of Colorado and that Respondent was not exempt from
but was subject to the provisions of the Act on and
during the times noted immediately below:
August 10, 2006 through June 8, 2007
And
September 12, 2010 through July 9, 2014
$250.00 per day for each day for the period from
August 10, 2006 through August 29, 20016 in the
amount of $5,000.00 (Five Thousand Dollars).
$260.00 per day from August 30, 2006 through
September 3, 2006 in the amount of $1,300.00 (One
Thousand Three Hundred Dollars).
$280.00 per day from September 4, 2006 through
September 8, 2006 in the amount of $1,400.00 (One
Thousand Four Hundred Dollars).
$300.00 per day from September 9, 2006 through
September 13, 2006 in the amount of $1,500.00 (One
Thousand Five Hundred Dollars).
$400.00 per day from September 14, 2006 through
September 18, 2006 in the amount of $2,000.00 (Two
Thousand Dollars).

App. 135
$500.00 per day from September 19, 2006 through June
8, 2007 in the amount of $131,500.00 (One Hundred
Thirty-One Thousand Five Hundred Dollars).
$500.00 per day from September 12, 2010 through July
9, 2014 in the amount of $698,500.00 (Six Hundred
Ninety-Eight Thousand Five Hundred Dollars).
The total amount of the fine for the periods noted
above is $841,200.00 (Eight Hundred Forty-One
Thousand Two Hundred Dollars).

App. 136

APPENDIX G
STATE OF COLORADO
BEFORE THE DEPARTMENT OF
LABOR AND EMPLOYMENT
DIVISION OF WORKERS’ COMPENSATION
FEIN#: 84-1545878
[Filed October 10, 2014]
__________________________
In the matter of:
)
Dami Hospitality, LLC
)
DBA Motel 8
)
)
Respondent
)
__________________________ )
SPECIFIC FINDINGS OF FACT,
CONCLUSIONS AND ORDER TO PAY FINE
SUBSEQUENT VIOLATION
THIS MATTER comes before the Director of the
Division of Workers’ Compensation following the
Director’s issuance of a Notice to Show Compliance
with the insurance requirements of the Colorado
Workers’ Compensation Act (the “Act”) and a directive
to complete an Employer’s Compliance Questionnaire
directed to the Respondent and dated June 25, 2014.
Having reviewed employment information received by
and available to the Colorado Department of Labor and
Employment (CDLE), investigative information, and
affidavit(s) if applicable (the “records”) as well as any

App. 137
direct response to the Director’s Notice to Show
Compliance and directive to complete the Employer’s
Compliance Questionnaire and, being otherwise fully
advised, the Director finds and concludes as follows:
1. Records show that on and/or after July 1, 2005 the
Respondent employed one or more persons in the State
of Colorado and that Respondent was not exempt from
but was subject to the provisions of the Act on and
during the times noted in Subsequent Violation Exhibit
A enclosed herein and made a part hereof.
2. The records further show that Respondent did not
have a policy of workers’ compensation insurance in
effect during the time(s) noted in Subsequent Violation
Exhibit A and was not insured for workers’
compensation during such times as required by the Act.
The Respondent employer operated its business despite
the absence of such insurance.
3. Respondent was directed by the Director’s Notice to
Show Compliance – Subsequent Violation dated June
25, 2014 to provide proof of insurance coverage or, in
the alternative, to demonstrate its exemption from the
requirements of the Act within twenty (20) days from
the date of the Director’s Notice to Show Compliance –
Subsequent Violation and was advised of its
opportunity to present evidence to the Division
regarding the issue of insurance coverage or exemption
and on default. The Respondent was also advised of
and afforded the opportunity to request a prehearing
conference regarding these issues.
4. Respondent has failed to provide satisfactory proof
of workers’ compensation insurance coverage to the

App. 138
Division for the period(s) noted in Subsequent Violation
Exhibit A of this order, did not request a prehearing
conference, and has failed to satisfactorily demonstrate
why Respondent was exempt from the insurance
requirements of the Act. However, the record also
shows that Respondent, following receipt of the
Director’s Notice to Show Compliance – Subsequent
Violation, did obtain a policy of insurance that became
effective on July 10, 2014.
5. The Respondent was and is in default of its
insurance obligations. Moreover, in an order issued on
May 24, 2006, the Director previously found
Respondent to be in default of its insurance obligations
during the period(s) noted in that order and any exhibit
referenced in the order. The Respondent’s previous
period of default ended on June 9, 2006 when
Respondent obtained a workers’ compensation
insurance policy from Employers Compensation
Insurance Company
6. Section 8-43-409 C.R.S. provides that in instances
of default, the Director shall take one or both of the
following actions: order a defaulting employer to
immediately cease and desist business operations until
workers’ compensation insurance is obtained, or impose
daily fines of not less than Two Hundred Fifty Dollars
($250.00) or more than Five Hundred Dollars ($500.00)
upon an employer for each day that the employer failed
to insure or to keep the insurance required by articles
40 to 47 of this title in force, allowed such insurance to
lapse, or failed to renew such coverage. The
Respondent has not provided a satisfactory reason or
explanation nor produced evidence of why a cease and

App. 139
desist order and/or a fine of $250/day to $500/day for
each day of its default is not warranted.
THEREFORE, IT IS NOW ORDERED:
1. As the Respondent is now in compliance with the
insurance provisions of the Act, the Director
determines that, under the totality of circumstances
presented, it is appropriate to impose fines on
Respondent.
2. Workers’ Compensation Rule of Procedure 3-6
provides schedules of fines for periods when coverage
should have been in place but was not. The fines to be
imposed are to be in accordance with the schedules of
fines contained in Rule 3-6. Consequently, a fine in the
total amount as set out below and in Subsequent
Violation Exhibit A enclosed, is now hereby imposed for
the period(s) noted in the Exhibit and incorporated
here as part of this order.
3. Respondent is ordered to pay by cashier’s check,
payable to the Treasurer, State of Colorado, a fine in
the initial amount of $841,200.00 (Eight Hundred
Forty One Thousand Two Hundred Dollars)
determined in accordance with the provisions of Rule 36 and calculated as is more fully set out in Subsequent
Violation Exhibit A enclosed and incorporated herein
by reference.
4. Respondent is to mail or otherwise deliver the total
amount of $841,200.00 (Eight Hundred Forty One
Thousand Two Hundred Dollars) ALONG WITH
A COPY OF THIS SPECIFIC FINDINGS OF
FACT, CONCLUSIONS AND ORDER TO PAY
FINE – SUBSEQUENT VIOLATION to the Director,

App. 140
Division of Workers’ Compensation, 633 17th Street,
Suite 400, Denver, Colorado 80202 immediately, but in
no event later than twenty (20) days from the date of
this SPECIFIC FINDINGS OF FACT, CONCLUSIONS
AND ORDER TO PAY FINE – SUBSEQUENT
VIOLATION.
5. Respondent is to provide to the Director upon the
Director’s request, proof of workers’ compensation
insurance coverage (or evidence satisfactory to the
Director supporting exemption there from) for any
period or periods requested by the Director for which
the Director has cause to believe that coverage was or
may have been required.
DIVISION OF WORKERS’ COMPENSATION
BY /s/Paul Tauriello
Paul Tauriello, Director
This Order of the Director is final and not subject
to appeal unless a petition to review, meeting the
requirements of and in compliance with the
provisions of §8-43-301(2) is filed with the
Director and mailed or delivered as required in
that statute to the Director, Division of Workers’
Compensation, 633 17th Street, Suite 400, Denver,
Colorado 80202 within twenty (20) days after the
date this Order is mailed.
A copy of this SPECIFIC FINDINGS OF FACT,
CONCLUSIONS AND ORDER TO PAY FINE –
SUBSEQUENT VIOLATION and SUBSEQUENT
VIOLATION EXHIBIT A was mailed to the following

App. 141
at the address shown below on October 30, 2014 by
Nikki G..
Dami Hospitality LLC
DBA Motel 8
2341 East Dartmouth Place
Englewood CO 80110

FEIN: 84-1545878

App. 142
SUBSEQUENT VIOLATION
EXHIBIT A
In the matter of
Dami Hospitality LLC
DBA Motel 8
2341 East Dartmouth Place
Englewood CO 80110
FEIN: 84-1545878

October 30, 2014

Records show that on and/or after July 1, 2005 the
Respondent employed one or more persons in the State
of Colorado and that Respondent was not exempt from
but was subject to the provisions of the Act on and
during the times noted immediately below:
August 10, 2006 through June 8, 2007
And
September 12, 2010 through July 9, 2014
$250.00 per day for the period from August 10, 2006
through August 29, 2006 in the amount of $5,000.00
(Five Thousand Dollars).
$260.00 per day for the period from August 30, 2006
through September 3, 2006 in the amount of $1,300.00
(One Thousand Three Hundred Dollars).
$280.00 per day for the period from September 4, 2006
through September 8, 2006 in the amount $1,400.00
(One Thousand Four Hundred Dollars).
$300.00 per day for the period from September 9, 2006
through September 13, 2006 in the amount of $1,500.00
(One Thousand Five Hundred Dollars)

App. 143
$400.00 per day for the period from September 14, 2006
through September 18, 2006 in the amount in the
amount of $2,000.00 (Two Thousand Dollars).
$500.00 per day for the period from September 19, 2006
through June 8, 2007 in the amount of $131,500.00
(One Hundred Thirty One Thousand Five Hundred
Dollars).
$500.00 per day for the period from September 12, 2010
through July 9, 2014 in the amount of $698,500.00 (Six
Hundred Ninety Eight Thousand Five Hundred
Dollars).
The total amount of the fine for the periods noted
above is $841,200.00 (Eight Hundred Forty One
Thousand Two Hundred Dollars)

App. 144

APPENDIX H
Colo. Rev. Stat. § 8-43-409. Defaulting employers-penalties--enjoined from continuing business-fines--procedure--definition
(1) An employer subject to the terms and provisions of
articles 40 to 47 of this title who fails to insure or to
keep the insurance required by such articles in force,
allows the insurance to lapse, or fails to effect a
renewal of the insurance shall not continue business
operations while such default in effective insurance
continues. Upon receiving information that an
employer is in default of its insurance obligations, the
director shall investigate and, if the information can be
substantiated, shall notify the employer of the
opportunity to request a prehearing conference on the
issue of default. As part of the director’s investigation,
the director may verify that all employees of that
employer are insured through the employer’s workers’
compensation plan. The director may forward any
workers’ compensation coverage issue to the employer’s
workers’ compensation carrier for further investigation
by the carrier. Thereafter, if necessary, the director
may set the issue of the employer’s default for hearing
in accordance with hearing time schedule and
procedures set forth in articles 40 to 47 of this title and
rules promulgated by the director. Upon a finding that
the employer is in default of its insurance obligations,
the director shall take either or both of the following
actions:

App. 145
(a) Order the employer in default to cease and desist
immediately from continuing its business operations
during the period such default continues;
(b) For every day that the employer fails or has failed
to insure or to keep the insurance required by articles
40 to 47 of this title in force, allows or has allowed the
insurance to lapse, or fails or has failed to effect a
renewal of such coverage, impose a fine of:
(I) Not more than two hundred fifty dollars for an
initial violation; or
(II) Not less than two hundred fifty dollars or more
than five hundred dollars for a second and any
subsequent violation. For purposes of this
subparagraph (II) only, if an employer has been fined
pursuant to subparagraph (I) of this paragraph (b) and
the director determines that substantially the same
people or entities were involved in forming a
subsequent employer, the initial violation referred to in
subparagraph (I) of this paragraph (b) shall be deemed
to have already occurred with regard to violations
committed by the subsequent employer.
(2) A cease-and-desist order issued or fine imposed by
the director under subsection (1) of this section shall
include specific findings of fact that reflect:
(a) The employer received notice of a hearing, when
applicable;
(b) The employer employs employees for whom it must
carry workers’ compensation insurance under the
provisions of articles 40 to 47 of this title;

App. 146
(c) The employer does not or did not have a policy of
workers’ compensation insurance in effect; and
(d) The employer continues or continued to operate its
business in the absence of such coverage.
(3) Notwithstanding any other provision of articles 40
to 47 of this title, after the entry of a cease and desist
order and upon the request of the director, the attorney
general shall immediately institute proceedings for
injunctive relief against the employer in the district
court of any county in this state where such employer
does business. In any such district court proceeding, a
certified copy of any cease and desist order entered by
the director in accordance with the provisions of
subsection (1) of this section based upon evidence in the
record shall be prima facie evidence of the facts found
in such record. Such injunctive relief may include the
issuance of a temporary restraining order under rule 65
of the Colorado rules of civil procedure, which order
shall enjoin the employer from continuing its business
operations until it has procured the required insurance
or has posted adequate security with the court pending
the procurement of such insurance. The court, in its
discretion, shall determine the amount that shall
constitute adequate security.
(4) The issuance of an order to cease and desist, the
imposition of a fine pursuant to subsection (1) of this
section, or the issuance of an order for injunctive relief
against an employer for failure to insure or to keep
insurance in force as required by articles 40 to 47 of
this title shall be the penalty for such failure within the
meaning of section 8-43-304(1) and such penalty shall

App. 147
be in addition to the increase in benefits that section 843-408 requires.
(5) The director or administrative law judge shall
report to the division each time a fine is imposed
pursuant to subsection (1) of this section. Each such
report shall include the amount of the fine and the
name of the offending party.
(6) A certified copy of any final order of the director
ordering the payment of a fine imposed pursuant to
subsection (1) of this section may be filed with the clerk
of the district court of any county in this state at any
time after the period of time provided by articles 40 to
47 of this title for appeal or seeking review of the order
has passed without appeal or review being sought or, if
appeal or review is sought, after the order has been
finally affirmed and all appellate remedies and all
opportunities for review have been exhausted. The
party filing the order shall at the same time file a
certificate to the effect that the time for appeal or
review has passed without appeal or review being
undertaken or that the order has been finally affirmed
with all appellate remedies and all opportunities for
review having been exhausted. The clerk of the district
court shall record the order and the filing party’s
certificate in the judgment book of the court and entry
thereof made in the judgment docket, and it shall
thereafter have all the effect of and constitute a
judgment of the district court, and execution may issue
thereon from said court as in other cases. Any such
order may be filed by and in the name of the director.
(7) Fines collected pursuant to this section shall be
transmitted to the state treasurer, who shall credit

App. 148
twenty-five percent of such fine to the workers’
compensation cash fund, created in section 8-44-112,
which shall be used to offset the premium surcharge.
The state treasurer shall credit the remainder of the
fine to the general fund.
(8) For the purposes of this section, “construction site”
means a location where a structure that is attached or
will be attached to real property is constructed, altered,
or remodeled.

